<html>
<title> - FOSTERING INNOVATION IN EDUCATION</title>
<body><pre>[Senate Hearing 111-1117]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1117
 
                   FOSTERING INNOVATION IN EDUCATION

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
     REAUTHORIZATION, FOCUSING ON FOSTERING INNOVATION IN EDUCATION

                               __________

                     APRIL 19, 2010 (Charlotte, NC)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
56-125                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas           
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          


                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                         MONDAY, APRIL 19, 2010

                                                                   Page
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina, opening statement....................................     1
Shah, Shivam Mallick, Director of Special Initiatives, Office of 
  Innovation, and Improvement, U.S. Department of Education, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6
Garland, Rebecca, Ed.D, Chief Academic Officer, North Carolina 
  Department of Public Instruction, Raleigh, NC..................     8
    Prepared statement...........................................    10
Clark, Ann Blakeney, Chief Academic Officer, Charlotte-
  Mecklenburg Schools, Charlotte, NC.............................    14
    Prepared statement...........................................    15
Arbuckle, Margaret Bourdeaux, Ph.D., Executive Director, Guilford 
  Education Alliance, Greensboro, NC.............................    17
    Prepared statement...........................................    19
Setser, Bryan, Executive Director, North Carolina Virtual Public 
  Schools, Raleigh, NC...........................................    21
    Prepared statement...........................................    23
Rectanus, Karl, Leader, NC Stem Community Collaborative, Durham, 
  NC.............................................................    24
    Prepared statement...........................................    25
McCray, Mary, Teacher, Community House Middle School and Local 
  President of the Charlotte-Mecklenburg Association of Educators    28
    Prepared statement...........................................    30

                                 (iii)

  


                   FOSTERING INNOVATION IN EDUCATION

                              ----------                              


                         MONDAY, APRIL 19, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                     Charlotte, NC.
    The committee met, pursuant to notice, at 10:58 a.m., at E. 
E. Waddell High School, 7030 Nations Ford Road, Charlotte, NC, 
Hon. Kay Hagan presiding.
    Present: Senator Hagan.

                   Opening Statement of Senator Hagan

    Senator Hagan. All right. The Senate Committee on Health, 
Education, Labor, and Pensions will come to order. I want to 
start by thanking the principal, Lisa Bowen, and the assistant 
principals, Jed Yakin and Marvin Bradley, here at E. E. Waddell 
High School for hosting our hearing today.
    I know we were talking to the principal earlier, and we 
would like the ROTC to join us to say the Pledge of Allegiance. 
So if we could go ahead and do that, that would be wonderful.
    Are they ready?
    [Pledge of Allegiance.]
    Senator Hagan. Thank you. That was excellent. I want to 
thank our students.
    I recently got back from visiting our troops in Iraq and 
Afghanistan and also got to go to Pakistan, and I am so 
incredibly proud of the young men and women who are serving us 
in our country today overseas and here at home to keep us safe. 
They are just doing an incredible job. These young men and 
women I know, too, are doing a great job here. So thank you 
very, very much.
    I know that here at E. E. Waddell, this is the only early 
college high school model in the Charlotte-Mecklenburg school 
system. I know the early college high school programs are so 
important in preparing our students to compete in the global 
marketplace, and I am happy to know that so many students are 
taking advantage of this program.
    I was actually a member of the State legislature when we 
first started forming the early colleges, and I had an intern--
a young woman who had dropped out of high school, attended 
early college at GTCC, and then became an intern for me, she 
then matriculated to UNC-Chapel Hill and graduated. So let me 
tell you, our early college programs are a true success in 
North Carolina.
    I know that there is a civics and government class here 
attending the hearing this morning, and I just want to welcome 
the students here. Thank you very much for coming. It is great 
to see that you are interested in how government works, and I 
apologize for having my back to you for some of this meeting.
    But as our country's future leaders, everything we do is 
for you right here. So thank you for being here. We look to you 
to be the leaders of the future here in the United States.
    I also want to thank all of the witnesses for being here to 
share your thoughts, and insights with us. As educators and 
advocates from across the State and the U.S. Department of 
Education, it is people like you that the rest of us count on 
to do this very incredibly hard work and very rewarding work.
    As the Health, Education, Labor, and Pensions Committee 
continues in a series of hearings like this in preparation for 
the reauthorization of the Elementary and Secondary Education 
Act, I thought it was important to hold a hearing here in North 
Carolina so that I can hear firsthand what is going on in the 
State and ask others what is important to them.
    Fostering Innovation in Education is a broad topic and one 
that can be interpreted and applied in many different ways, but 
it is certainly not a concept unfamiliar to us in North 
Carolina. Our State was first in flight when the Wright 
brothers first gave man the ability to fly. We were the first 
to have a public university, an institution that has made a 
commitment to providing quality education to all North 
Carolinians, regardless of economic background.
    When I tell people in Washington that North Carolina was 
the first public university, they say the Harvards and the 
Princetons were before us, but those are private universities. 
We were the first State to have a public higher institute of 
education. We also have one of the best community college 
systems in the country, and we have produced a program that 
allows high school students to enroll in community college 
classes and, in many instances, graduate from high school with 
a 2-year degree already in hand.
    We know how to leverage private-public partnership as 
evidenced by rural Bertie County, who partnered with Internet 
provider CenturyLink to provide broadband Internet in 1,500 
homes of students in Bertie County for 5 years.
    We are also a leader in recruiting great teachers and 
leaders for our most struggling schools, measuring teacher 
effectiveness, and compensating teachers for their performance. 
Across the country, people look to this school district here 
where we are visiting today, Charlotte-Mecklenburg, one of the 
largest school districts in the State, as the leader and 
innovator in improving the performance of the adults in the 
classroom, guided by the belief that every child deserves a 
highly effective teacher.
    I just saw Jennifer Roberts come in. Jennifer is the 
chairman of the county commissioners. I really welcome and 
appreciate you being here today, too.
    In North Carolina, we understand that our economic strength 
as a country is dependent on ensuring that we have well-
educated and highly skilled workers ready to compete in the 
global marketplace. Research and statistics already demonstrate 
that if we do not improve the quality of our public schools and 
outcomes for our children, our country is going to lag behind 
other developed nations. The longer we wait to fix this 
problem, the worse off we know we will be.
    Studies show that in North Carolina, for every freshman 
class in high school, approximately 46,000 students don't 
graduate 4 years later. Experts estimate that the lost lifetime 
earnings for those 46,000 students will total over $12 billion. 
So be sure that we communicate to all of your friends and 
fellow classmates they have got to stay in school. That should 
be frightening for all of us.
    Something else frightening is that the Department of 
Education estimates that there are approximately 5,000 
chronically underperforming schools in the country. That is 
nearly 5 percent of our Nation's public schools. We certainly 
cannot afford to allow chronically underperforming schools to 
get away with improperly serving our students.
    Turning around these schools I know is a daunting task, but 
we in North Carolina are up to the challenge, and we are 
already way ahead of the game. We also must ensure that every 
child is receiving a well-rounded education. I am a strong 
believer that subjects including reading, math, and science are 
important. But it is also important to have art, music, and 
foreign language that keeps our kids coming back to school day 
in and day out.
    I also believe that we need to have financial literacy 
education. Just as I have done in North Carolina, the first 
bill that I introduced in the U.S. Senate is the Financial 
Literacy for Students Act, which will incentivize States to 
incorporate curriculum in grades 6 to 12 to teach our kids 
about finance. I think it is a critical component to ensuring 
that our kids are career and college ready, and we must do a 
better job of educating students on financial literacy.
    The Administration's blueprint represents some significant 
improvements from No Child Left Behind. I especially appreciate 
the focus on creating college- and career-ready students and 
the emphasis on the creation of and continued use of innovative 
programs that work.
    As the only developed Nation with a younger generation of 
students that people say have a lower level of high school or 
equivalent education than the older generation, we have a lot 
of work to do, and the time is now. We have to make tough 
choices if we are going to accomplish our President's goal that 
every child being career- and college-ready by 2020 and that 
the United States will lead the world in college completion by 
that year as well.
    I believe that the decisions that we make and the work that 
we do in Congress will undoubtedly have a major impact on 
future generations.
    Thank you for being here with us today.
    I am going to introduce the witnesses, and then we will 
start.
    First, Shivam Shah is the Director of Special Initiatives 
in the Office of Innovation and Improvement at the U.S. 
Department of Education. Shivam is responsible for leading the 
development and implementation of the Promise Neighborhood 
initiative and many other innovative programs at the Department 
of Education.
    Next, Rebecca Garland, chief academic officer for the North 
Carolina Department of Public Instruction. As chief academic 
officer, Dr. Garland provides leadership in all areas involving 
curriculum, instruction, accountability, and teacher quality, 
just to name a few.
    And following Dr. Garland is Mrs. Ann Clark, who comes from 
my hometown of Greensboro. Mrs. Clark is the chief academic 
officer here in Charlotte for the Charlotte-Mecklenburg School 
District. Mrs. Clark held a variety of teaching and 
administrative positions at CMS since joining the district in 
1983.
    Mrs. Margaret Arbuckle is the executive director of the 
Guilford Education Alliance, a county-wide nonprofit 
organization that supports quality education for all of 
Guilford County's children. Our children grew up together, so 
Dr. Arbuckle and I go way back.
    Bryan Setser is the executive director of North Carolina's 
Virtual Public School. He is an innovative leader who has 
tripled our online enrollment to over 65,000 students.
    Following Mr. Setser is Karl Rectanus. Karl leads our NC 
STEM Community Collaborative, and in this role, he works to 
align North Carolina communities to successfully structure 
science, technology, engineering, and math disciplines in their 
schools.
    And then last, but certainly not least, is Mrs. Mary 
McCray, who has been an elementary schoolteacher for 32 years 
and has taught in the Charlotte-Mecklenburg School District for 
the last 22 years. And if that isn't enough, Mrs. McCray also 
is the president of the Charlotte-Mecklenburg Association of 
Educators, an affiliate of the NEA.
    Now we will begin with Ms. Shah for testimony. We will ask 
you to limit your testimony to 5 minutes. Once you have 
concluded your remarks, we will begin the question and answer 
portion of the hearing.
    Before we begin, I did want to also mention Vilma Leake. 
Vilma Leake is a country commissioner and one of my dear 
friends. I also would like to acknowledge Avery Staley from the 
Lieutenant Governor's office. Thank you.
    OK, Ms. Shah.

     STATEMENT OF SHIVAM MALLICK SHAH, DIRECTOR OF SPECIAL 
    INITIATIVES, OFFICE OF INNOVATION AND IMPROVEMENT, U.S. 
            DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Ms. Shah. Good morning, everyone.
    Senator Hagan, thank you for the opportunity to address 
this committee and the students, faculty, and friends of the E. 
E. Waddell High School to discuss the ways in which the U.S. 
Department of Education is committed to fostering innovation in 
education. And thank you for your support locally here in North 
Carolina, as well as nationally.
    It is no secret that to keep up with the demands of a 
global economy, every student must graduate high school with 
college- and career-ready skills. But the reality is that 3 in 
10 students fail to complete high school on time, and of those 
who do, only two-thirds enroll in a college or university. 
Completion rates for those who seek a post-secondary degree or 
certification do not keep pace with enrollment. The statistics 
for minority students, low-income students, and English 
language learners are dramatically worse.
    What many of our schools need, to ensure that every student 
achieves success, is transformational change. It is not simply 
tinkering around the edges. Previous Federal efforts to improve 
our education system have largely been incremental, and they 
have yielded results that were less than adequate.
    Today, however, we have a tremendous opportunity to re-
envision and renew what public education looks like, and three 
factors have set the stage. First, President Obama is committed 
to the ambitious, but attainable goal of ensuring that America 
will regain its lost ground and have the highest proportion of 
students graduating from college in the world by 2020.
    Second, thanks to leadership from President Obama and 
Congress, the American Recovery and Reinvestment Act of 2009, 
the recovery bill, provided nearly $100 billion to support 
education, including a $5 billion investment for Race to the 
Top and the Investing in Innovation Fund, the largest one-time 
Federal investment in education in history. These funds heavily 
invest in education, both as a way to provide jobs now and to 
lay the foundation for long-term prosperity.
    Our Nation's economic competitiveness and the path to the 
American dream depend on providing every child with an 
education that will enable them to succeed in a global economy. 
That success is going to be predicated on both knowledge and 
innovation. And, finally, Congress is working to reauthorize 
the Elementary and Secondary Education Act of 1965, which we 
hope will not only fix the problems of No Child Left Behind, 
but again establish a re-envisioned Federal role in education.
    To take advantage of this unprecedented opportunity, we 
must identify, support, and evaluate new educational models--
models that focus on improving outcomes for students, teachers, 
and principals. And we must acknowledge that most of the best 
ideas come from local educators and are locally grown. That is 
why the Department of Education is committed to investing in 
evidence-based innovation to enhance the programs that we know 
are working and to bring them to scale.
    I want to tell you a little bit about the Investing in 
Innovation fund, which is the program that I run. It is one of 
the stimulus-created funds. It is a $650 million fund, which 
provides competitive grants to school districts and nonprofits 
to expand the implementation of and investment in innovative 
practices in four areas--supporting effective teachers and 
principals, improving the use of data to accelerate student 
achievement, complementing the implementation of standards and 
assessments that do prepare students for success in college and 
careers, and turning around the persistently low-performing 
schools you described earlier.
    Grantees will also be required to form partnerships with 
the private sector to obtain matching funds. Applicants will be 
required to propose projects that develop or expand innovation 
in critical areas of education reform that will benefit high-
need students. We are requiring that practices supported by i3 
grants have a demonstrated effect on improving student 
achievement or student academic growth, closing achievement 
gaps, decreasing dropout rates, increasing high school 
graduation rates, or increasing college enrollment and college 
completion rates.
    Through i3, we are introducing a new rigorous, three-tiered 
evidence framework, which will direct different levels of 
funding to programs at different levels of development. 
Essentially, the highest level of funding will go to those 
programs with the strongest evidence. So there are three types 
of grants.
    There are development grants, which require a reasonable 
hypothesis, and those will be used to support practices that 
are really still at an earlier stage of development. More fresh 
ideas, not necessarily new, but less proven.
    Validation grants will require a moderate level of 
evidence, and these grants will be aimed at validating and 
spreading promising programs to a regional scale.
    And then scale-up grants, which are the largest, in which 
applicants can request up to $50 million, will require strong 
evidence and will be aimed at bringing proven programs to 
national scale.
    In an effort to support what works, the i3 program also 
contains a robust evaluation component. We want to make sure 
that when Federal dollars are supporting work in the field that 
we can show over time that these programs are working and 
moving the needle for kids.
    We are going to require grantees to conduct independent 
program evaluation. We will broadly share the results of that 
work and of any evaluation of any i3-funded effort. Grantees 
must also participate in a ``community of practice'' so that 
they can share, document, and disseminate to the field the best 
practices and lessons that they have learned.
    On March 12th, the department released a notice inviting 
applications for i3 applications. Since then, we have received 
almost 2,500 letters of intent to apply. We have also reached 
out and had three pre-application workshops in which over 4,000 
people registered. By all measures, this was an unprecedented 
level of interest in a competitive grant program, and our team 
is gearing up to get ready to review and find some great ideas 
to support. But we think this level of interest is indicative 
of the enthusiasm around the country to innovate and to scale 
up effective, local strategies.
    So we are doing a lot at the department that we are excited 
about. i3 is just one component of that innovation work. We are 
requesting an additional $500 million in the ESEA. But aside 
from i3, we hope to use those funds to support a range of 
programs, including additional things like the early college 
high school programs you described, from financial literacy 
efforts, STEM projects, and a whole range of different things 
that we see working in the field that we would like to help 
bring to scale to help more kids achieve.
    Thank you.
    [The prepared statement of Ms. Shah follows:]

               Prepared Statement of Shivam Mallick Shah

    Good morning, Senator Hagan. Thank you for the opportunity to 
address this committee and discuss the ways in which the U.S. 
Department of Education is committed to fostering innovation in 
education. And thank you for your support for education, both here in 
North Carolina and nationally.

                               BACKGROUND

    It's no secret that, to keep up with the demands of a global 
economy, every student must graduate from high school with college- and 
career-ready skills. But the reality is that 3 in every 10 students 
fail to complete high school on time and, of those who do, only two-
thirds enroll in a college or university. Completion rates for those 
who seek a post-secondary degree or certification do not keep pace with 
enrollment. The statistics for minority students, low-income students, 
and English learners are dramatically worse.
    What many of our schools need to ensure that every student achieves 
success is transformational change, not simply tinkering around the 
edges. Previous Federal efforts to improve our education system have 
largely been incremental and yielded results that were less than 
adequate.
    Today, however, we have a tremendous opportunity to re-envision and 
renew what public education looks like, and three factors have set the 
stage. First, President Obama is committed to the ambitious but 
attainable goal of ensuring that America will regain its lost ground 
and have the highest proportion of students graduating from college in 
the world by 2020. Second, thanks to leadership from President Obama 
and Congress, the American Recovery and Reinvestment Act of 2009 
(Recovery Act) provided nearly $100 billion to support education, 
including a $5 billion investment for Race to the Top and the Investing 
in Innovation Fund, the largest one-time Federal investment in 
education in history. These funds invest heavily in education both as a 
way to provide jobs now and to lay the foundation for long-term 
prosperity. Our Nation's economic competitiveness and the path to the 
American Dream depend on providing every child with an education that 
will enable them to succeed in a global economy that is predicated on 
knowledge and innovation. And, finally, Congress is working to 
reauthorize the Elementary and Secondary Education Act of 1965, which 
we hope will not only fix the problems of the No Child Left Behind Act, 
but also establish a re-envisioned Federal role in education.
    To take advantage of this unprecedented opportunity, we must 
identify, support, and evaluate new educational models--models that 
focus on improving outcomes for students, teachers, and principals. And 
we must acknowledge that most of the best ideas, policies, and 
practices are locally grown. That is why the Department of Education is 
committed to investing in evidence-based innovative practices to 
enhance these programs and bring them to scale.

                        INVESTING IN INNOVATION

    One program designed to do just that is the Investing in Innovation 
program, or i3. i3 provides for $650 million in competitive grants to 
school districts and nonprofit organizations to expand the 
implementation of, and investment in, innovative practices in the 
following four areas:

    1. Supporting effective teachers and principals;
    2. Improving the use of data to accelerate student achievement;
    3. Complementing the implementation of standards and assessments 
that prepare students for success in college and careers; and
    4. Turning around persistently low-performing schools.

    Grantees will also be required to form partnerships with the 
private sector to obtain matching funds. Applicants will be required to 
propose projects that develop or expand innovations in critical areas 
of education reform that will benefit high-need and other students. We 
are requiring that practices supported by an i3 grant have a 
demonstrated effect on:

    1. Improving student achievement or student academic growth;
    2. Closing achievement gaps;
    3. Decreasing dropout rates;
    4. Increasing high school graduation rates; or
    5. Increasing college enrollment and completion rates.

    Through i3, we are introducing a new rigorous, three-tiered 
evidence framework that will direct different levels of funding to 
programs at three different stages of development, with the highest 
level of funding going to programs with the strongest evidence:

    1. Development grants will require a reasonable hypothesis that the 
practice or strategy will result in significantly improved outcomes. 
The purpose of these grants will be to develop fresh ideas;
    2. Validation grants will require moderate evidence of 
effectiveness. These grants will be aimed at validating and spreading 
promising programs to a regional scale; and
    3. Scale Up grants will require strong evidence and will be aimed 
at bringing proven programs to national scale.

    In an effort to support what works, the i3 program also contains a 
robust evaluation component. We will require grantees to conduct an 
independent program evaluation and we will broadly share the results of 
any evaluations of i3 funded efforts. Grantees must also participate in 
a ``community of practice'' to share, document, and disseminate to the 
field best practices and lessons learned.
    On March 12, the Department released the notice inviting i3 
applications. Since then, more than 2,400 letters of intent to apply 
have been submitted to the Department and approximately 4,000 people 
have participated in the three pre-application workshops and webinars. 
Interest in the i3 grant program has been tremendous, and is indicative 
of the enthusiasm that exists around the country to innovate and to 
scale up effective, local strategies.
    To help i3 applicants and to serve the larger purpose of creating 
an innovation community, the Department of Education has launched an 
online community, called the Open Innovation Portal. Though not a 
formal part of the i3 grant process, the portal is the first national 
forum that connects entrepreneurs, education stakeholders of all types, 
and funders for the purpose of partnering and developing and funding 
innovative ideas in the education sector. Through this portal, the 
Department hopes to provide a forum for like-minded individuals, who 
may choose to work in partnership, to accelerate the development, 
identification, and broad use of innovative products, practices, and 
processes to improve education in schools.

                           INNOVATION IN ESEA

    The reauthorization of the ESEA provides an opportunity to continue 
the i3 program. Our reauthorization proposal would build on the current 
i3 program, and provide additional competitive grants to expand the 
implementation of, and investment in, innovative and evidence-based 
practices, programs, and strategies that significantly improve student 
outcomes. The Secretary would continue to use a rigorous three-tiered 
evidence framework that directs the highest levels of funding to 
programs with the strongest evidence.
    The Secretary could also give preference to applications that 
propose to develop or expand innovations in specific pressing needs, 
such as improving the teaching and learning of science, technology, 
engineering, and math (STEM) subjects, improving early-learning 
outcomes, addressing the learning needs of English learners and 
students with disabilities, and serving schools in rural areas. The 
Secretary could also reserve funds for inducement prizes to drive 
breakthrough innovations in education or for dramatic and innovative 
approaches to improving educational outcomes.
    In addition to developing and scaling up programs through i3 that 
have demonstrated success and working to discover the next generation 
of innovative solutions, we want the reauthorized ESEA to support many 
effective strategies that are already in broad use. Those include 
innovative strategies such as charter schools, full-service community 
schools, Promise Neighborhoods, virtual schools, magnet schools, and 
early college high schools--of which I know you are a strong supporter, 
as well as whole school reforms such as lengthening the school day or 
year, and transforming school culture.

                               CONCLUSION

    Innovation in education is more than just trying something new. 
It's about implementing and expanding strategies that improve outcomes. 
To help drive innovation in education, the Department of Education will 
look to the field for the best ideas, ideas that typically come from 
local educators. And we will offer incentives to States, districts, and 
nonprofit organizations to work together on efforts to implement and 
share effective strategies, evaluate and enhance them, ensure their 
long-term sustainability, and bring them to scale.

    Senator Hagan. Thank you.
    Ms. Garland.

  STATEMENT OF REBECCA GARLAND, CHIEF ACADEMIC OFFICER, NORTH 
     CAROLINA DEPARTMENT OF PUBLIC INSTRUCTION, RALEIGH, NC

    Ms. Garland. Thank you, Senator Hagan, for inviting me here 
today to talk about innovation in North Carolina, and I also 
thank you for your continued support of the public school 
students in North Carolina with your work in the General 
Assembly and in the U.S. Senate.
    In August 2006, the State Board of Education adopted a 
visionary, ambitious strategic plan for improving public 
education in our State, and that plan continues to be in action 
today. The plan itself outlines efforts within five goal 
categories.
    The first, globally competitive students, which involves 
the State boards working with standards and assessments. 
Twenty-first century professionals are working at improving 
effectiveness among teachers, school leaders, and the 
preparation programs at higher education and making sure that 
we have healthy students and students who are able to develop 
responsibility in child nutrition and financial literacy and 
civic engagement and in environmental literacy, that we have 
innovative programs that are seamless for post-secondary and 
that we improve our data systems.
    It is ironic that four of our five goals showed up in the 
Race to the Top four pillars. The primary author of that 
strategic plan was at that time Lieutenant Governor Beverly 
Perdue and since being elected as the Governor of the State has 
continued the initiatives started in that strategic plan and 
has enhanced them through her Ready, Set, Go agenda.
    While North Carolina has many innovative programs, I will 
focus on education programs and policy that is innovative and 
has a State-wide impact. Even before the Common Core 
discussions among the various States, North Carolina made a 
commitment to rewrite its entire standard course of study and 
to rewrite all of the end-of-course and end-of-grade 
assessments. We plan to replace those assessments with a 
balanced assessment system that will be delivered 
electronically through a learner management system.
    The balanced assessment program will include diagnostic 
measures that are engaged to allow teachers to be able to 
target at the individual student level where that student needs 
to improve, but also informative benchmark assessments so that 
the teacher knows how to restructure instruction in that 
classroom to meet the needs of all of the students and ensure 
that every student continues to move forward.
    The second area is in the area of effective teachers, 
leaders, and preparation programs. In addition to new content 
standards for students, we have new professional practice 
standards for all educators. What is innovative about this is 
that the same rubrics are applied at the practice teaching 
level--all the way from teachers, through principals, through 
sitting superintendents--get master's in school administration 
programs so that everyone has come to a common understanding 
about what effective classroom instruction looks like and how 
an effective school is run.
    Students today are not the same students that came to 
school 50 years ago. These students are not content to ``sit 
and get.'' They want to be engaged, and everybody in the 
educational system needs to understand how to impact those 
students. In addition to having the same standards, these folks 
will enjoy the same evaluation tool that we delivered 
electronically and also allow us at the State level to collect 
the data that the Federal Government now requires in terms of 
effective leaders and teachers.
    Paired with this is a huge effort on the part of the 
university system that now ranks its schools of education so 
that their information is on the table for all to see so that 
we can determine where the weaknesses are and begin to improve 
them. Also they are releasing data that compares their 
preparation programs to others, such as Teach for America, 
teachers from out of State, so that we can learn best practices 
from anyone who is preparing educators.
    We also have an initiative in our State for college and 
career readiness that Senator Hagan alluded to. We have 70 
early college high schools with 2 in planning and will be 
effective next year. That is more than any other State in the 
country and, in fact, at one time, we had more than all the 
other States combined.
    The purpose of those early college high schools is for 
students to graduate either with an associate's degree or with 
transferable credit. In addition to having the brick and mortar 
early college high schools, students are able to access those 
programs through learn and earn online so that every student in 
the State had the opportunity to take advantage of higher 
education courses while they are in high school.
    We also have 44 redesign high schools in our State that are 
focused on the Bill and Melinda Gates small schools philosophy. 
You will hear something about STEM this morning from Karl 
Rectanus, who is here.
    The General Assembly in our State has been very proactive 
in funding the District and School Transformation Division at 
the department. The purpose of that division is to work with 
over 150 schools across our State that are low performing. We 
work with them in terms of needs assessment and coaching so 
that we can build local capacity so that when department staff 
leave, the improvements do not regress.
    Also, we have a new North Carolina Virtual Public School 
that Dr. Setser is going to talk about this morning. It has 
been in effect now for the past 3 years and is ranked as one of 
the best in the country. Paired with that is a connectivity 
initiative that was funded by the General Assembly to make sure 
that broadband Internet service went to the schoolhouse door so 
that all students--
    Senator Hagan. Ms. Garland, just a few more minutes.
    Ms. Garland [continuing]. OK. Would be able to take 
advantage.
    And finally, we have efforts underway to improve our data 
system in the State. We at the department now place our targets 
and goals online through a performance navigator so that the 
public will be able to judge for themselves the progress made 
from the public schools, as well as the Department of Public 
Instruction.
    We feel like there is a mountain of data that we have 
accumulated in North Carolina over 15 years with our 
accountability model, that we have the data to make good 
decisions. And if we will have the courage to make those hard 
decisions, we know how to improve outcomes for North Carolina 
students.
    [The prepared statement of Ms. Garland follows:]

              Prepared Statement of Rebecca Garland, Ed.D.

    Good morning, Senator Hagan. Thank you for inviting me to testify 
about educational innovation in North Carolina. On behalf of our 1.5 
million North Carolina public school students, I would like to thank 
you for your support of public education in the U.S. Senate as well as 
your previous support while you were a member of our North Carolina 
General Assembly.
    In August 2006, the North Carolina State Board of Education adopted 
a visionary, ambitious strategic plan for changing public education. 
That plan continues to serve as the framework for major efforts in five 
broad areas--Globally Competitive Students (standards and assessments), 
21st Century Professionals (effective teachers, leaders, and 
preparation programs), Healthy and Responsible Students, (child 
nutrition and healthy life style), Innovation in Schools (seamless 
education to post-secondary, charter schools, and redesign high 
schools) and 21st Century Systems (data systems, turnaround processes 
for low-performing schools, and virtual education). See Attachment--
Future-Ready Students for the 21st Century.
    Each of the four required pillars found in the components of the 
Race to the Top proposal were already identified in 2006 by the NC 
State Board of Education as areas in which North Carolina needed major 
overhaul and innovative practices. Using the Board's vision as a 
foundation, the North Carolina Department of Public Instruction, the 
University of North Carolina System, and the North Carolina Community 
College System have worked seamlessly to introduce new initiatives that 
will ultimately result in improved outcomes for North Carolina 
students. Governor Beverly Perdue, who was a member of the State Board 
of Education in 2006 by virtue of her role as Lieutenant Governor, was 
the impetus for the Board's strategic plan. Then Lieutenant Governor 
Perdue spearheaded the creation of the North Carolina Virtual Public 
School. Since assuming her current position, Governor Perdue endorsed 
continuation of the major programs initiated under the strategic plan. 
She has also enhanced those reform efforts with her Ready, Set, Go 
agenda, focusing efforts to ensure that all North Carolina students 
graduate from high school, college and career ready.
    While North Carolina has many innovative programs underway, I will 
focus on a few. We like to think of most of our programs as Second 
Generation. For the past 15 years, North Carolina has led the Nation in 
accountability, support for low-
performing schools, and National Board certification for teachers. By 
using lessons learned from earlier work, we feel that our next 
generation of work allows us to stand on the foundation of solid 
evidence of what does and doesn't work in our State.

                       STANDARDS AND ASSESSMENTS

    Even before the Common Core Content standards work began, the North 
Carolina Department of Public Instruction began rewriting the entire 
North Carolina Standard Course of Study with an eye toward fewer and 
more transparent standards based on 21st century knowledge and skills. 
Along with a new Standard Course of Study, North Carolina is rewriting 
its whole series of End-of-Grade and End-of-Course assessments, paired 
with a balanced assessment system that will include diagnostic measures 
for the individual student as well as formative and benchmark tools for 
the teacher to adjust instruction. The assessments will be delivered 
online through a Learner Management System that will house curriculum 
and instructional tools for the teacher and learning activities and 
resources for the student. The assessments will include scenario-based 
performance tasks as well as more traditional items. North Carolina had 
a timeline in place for such a tool before the multi-state assessment 
consortia were formed and before the economic decline. By joining in a 
multi-state group, North Carolina hopes to be able to move toward such 
a system in a shorter timeframe with the benefit of Federal grant 
resources.

         EFFECTIVE TEACHERS, LEADERS, AND PREPARATION PROGRAMS

    In addition to new content standards, North Carolina educators have 
new professional practice standards written to address 21st century 
knowledge and skills and a new generation of students who expect 
schooling to be more than ``sit and get.'' The new Educator Evaluation 
System, required for all teachers and principals in the State, includes 
evaluation instruments for superintendents and central office staff, 
principals, teachers, and participants in teacher and school leader 
preparation programs. All of the instruments are aligned so that 
teachers in pre-service through sitting superintendents have the same 
expectations of what makes effective instruction and schooling. As a 
result of new standards, all of the pre-service programs at the public 
and private institutions of higher education are being revised and will 
be submitted to the North Carolina State Board of Education for 
approval.
    In addition to revising educational programs at all levels, the 
University of North Carolina System has undertaken an ambitious effort 
to evaluate and improve its preparation programs. In one recent study 
UNC ranked its teacher preparation programs in terms of student 
performance in public school classrooms. Another study using public 
school student performance data compared graduates from UNC programs 
with teachers prepared from other sources such as out-of-state, Teach 
for America, and private institutions. The UNC System is committed to 
using data to improve its preparation of education professionals.
    Both the evaluation system and the redesign of preparation programs 
are targeted at improved student performance. North Carolina has also 
approved alternative pathways to teacher and principal licensure and is 
currently investigating additional alternative programs. In North 
Carolina, educational leaders in K-12 and post-secondary are tightly 
focused on providing every student in our State with an effective 
teacher and school leader regardless of the zip code in which the 
student resides.

                        COLLEGE AND CAREER READY

    North Carolina is committed to high school reform and to increasing 
the number of students who attend post-secondary school. In order to 
encourage first generation college attendance, North Carolina funds 70 
Early College High Schools, with two more funded and in planning--the 
most of any other State. The Early Colleges are a cooperative effort 
between K-12 public school systems and the University of North Carolina 
campuses, the Community College campuses, and the Independent Colleges 
and Universities in North Carolina. The goal for the students is to 
graduate from high school in 5 years with a high school diploma, as 
well as an Associate's Degree or transferable college credit that will 
be accepted by the University of North Carolina System and by many of 
the private institutions. Tuition and textbooks are provided by the 
State. Preference for entrance is given to first-generation college 
students. Early data indicate higher graduation rates at the Early 
Colleges--typically in the 90 percent range, as well as students who 
report favorably on their experiences on the campuses.
    North Carolina also has 44 redesign high schools that have been 
restructured around the small schools model. Many of the schools have 
adopted a STEM (Science, Technology, Engineering, and Math) focus. All 
students are enrolled in rigorous college preparatory courses. The Bill 
and Melinda Gates Foundation has been instrumental in this initiative.

                           EFFECTIVE SCHOOLS

    The North Carolina General Assembly funds the District and School 
Transformation Division at the Department of Public Instruction in 
order to ensure that students in all North Carolina public schools get 
a sound education. Currently the Division works with over 150 schools. 
Schools are selected based on several directives--the NC Court System 
through the Leandro Hearings, the Governor's List for high schools 
targeting those under 60 percent proficiency, Title 1 Improvement 
sanctions, the ABCs of Public Education sanctions, five DPI-LEA 
partnerships for comprehensive improvement, and one school system 
takeover initiative. In all of the schools, teachers receive additional 
support from ongoing instructional facilitators, principals receive 
assistance through ongoing coaching and needs assessments, and in six 
systems, the superintendent and central office personnel are paired 
with full-time leadership coaches. In all instances the model is based 
on building local capacity for continuous improvement. After 2 years of 
implementation, the majority of targeted schools have posted 
significant student achievement gains.

            THE NORTH CAROLINA VIRTUAL PUBLIC SCHOOL (NCVPS)

    The NCVPS is ranked as one of the best in the Nation. You will be 
receiving comments from Dr. Bryan Setser, the director of the program. 
The NCVPS has been made more effective because of the North Carolina 
Connectivity initiative in which the State has assumed responsibility 
for providing connectivity to each school in North Carolina.
               transparent, data-driven systems approach
    In all of the initiatives outlined above, staff members at the 
Department of Public Instruction are working using data, planning 
strategically, and soliciting input from stakeholders through a 
transparent process. Programs are evidenced-based using North Carolina 
data and lessons learned from past experiences. As data-systems 
improve, program selection and outcomes for students will improve. The 
Department tracks its own performance using a Performance Navigator 
that is open to public view and scrutiny. North Carolina is committed 
to data and innovation as the drivers for a more effective and 
efficient educational system.
    Thank you for allowing me to share some of our innovative 
practices.
                                 ______
                                 
     Attachment--Future-Ready Students: Goals for the 21st Century

    The guiding mission of the North Carolina State Board of Education 
is that every public school student will graduate from high school, 
globally competitive for work and post-secondary education and prepared 
for life in the 21st century.

      NC PUBLIC SCHOOLS WILL PRODUCE GLOBALLY COMPETITIVE STUDENTS

    Every student excels in rigorous and relevant core curriculum that 
reflects what students need to know and demonstrate in a global 21st 
Century environment, including a mastery of languages, an appreciation 
of the arts and competencies in the use of technology.
    <bullet> Every student's achievement is measured with an assessment 
system that informs instruction and evaluates knowledge, skills, 
performance and dispositions needed in the 21st Century.
    <bullet> Every student will be enrolled in a course of study 
designed to prepare them to stay ahead of international competition.
    <bullet> Every student uses technology to access and demonstrate 
new knowledge and skills that will be needed as a lifelong learner to 
be competitive in a constantly changing international environment.
    <bullet> Every student has the opportunity to graduate from high 
school with an Associate's Degree or college transfer credit.
      nc public schools will be led by 21st century professionals
    <bullet> Every teacher will have the skills to deliver 21st Century 
content in a 21st Century context with 21st Century tools and 
technology that guarantees student learning.
    <bullet> Every teacher and administrator will use a 21st Century 
assessment system to inform instruction and measure 21st Century 
knowledge, skills, performance and dispositions.
    <bullet> Every education professional will receive preparation in 
the interconnectedness of the world with knowledge and skills, 
including language study.
    <bullet> Every education professional will have 21st Century 
preparation and access to ongoing, high quality professional 
development aligned with State Board of Education priorities.
    <bullet> Every educational professional uses data to inform 
decisions.
       nc public school students will be healthy and responsible
    <bullet> Every learning environment will be inviting, respectful, 
supportive, inclusive and flexible for student success.
    <bullet> Every school provides an environment in which each child 
has positive, nurturing relationships with caring adults.
    <bullet> Every school promotes a healthy, active lifestyle where 
students are encouraged to make responsible choices.
    <bullet> Every school focuses on developing strong student 
character, personal responsibility and community/world involvement.
    <bullet> Every school reflects a culture of learning that empowers 
and prepares students to be life-long learners.

         LEADERSHIP WILL GUIDE INNOVATION IN NC PUBLIC SCHOOLS

    <bullet> School professionals will collaborate with national and 
international partners to discover innovative transformational 
strategies that will facilitate change, remove barriers for 21st 
Century learning and understand global connections.
    <bullet> School leaders will create a culture that embraces change 
and promotes dynamic, continuous improvement.
    <bullet> Educational professionals will make decisions in 
collaboration with parents, students, businesses, education 
institutions, and faith-based and other community and civic 
organizations to impact student success.
    <bullet> Public school professionals will collaborate with 
community colleges and public and private universities and colleges to 
provide enhanced educational opportunities for students.

   NC PUBLIC SCHOOLS WILL BE GOVERNED AND SUPPORTED BY 21ST CENTURY 
                                SYSTEMS

    <bullet> Processes are in place for financial planning and 
budgeting that focus on resource attainment and alignment with 
priorities to maximize student achievement.
    <bullet> Twenty-first century technology and learning tools are 
available and are supported by school facilities that have the capacity 
for 21st Century learning.
    <bullet> Information and fiscal accountability systems are capable 
of collecting relevant data and reporting strategic and operational 
results.
    <bullet> Procedures are in place to support and sanction schools 
that are not meeting State standards for student achievement.

    Senator Hagan. Ms. Clark.

   STATEMENT OF ANN BLAKENEY CLARK, CHIEF ACADEMIC OFFICER, 
          CHARLOTTE-MECKLENBURG SCHOOLS, CHARLOTTE, NC

    Ms. Clark. Good morning, Senator Hagan. Thank you for the 
opportunity to tell you and your colleagues about some of the 
innovative work we are doing in Charlotte-Mecklenburg schools, 
including the great work being done here at E. E. Waddell High 
School under the leadership of Lisa Bowen and her team of 
teachers.
    I would like to tell you very briefly about three important 
initiatives now under way in CMS--strategic staffing, measuring 
teacher effectiveness, and pay for performance are three CMS 
initiatives intended to increase the performance of teachers, 
principals, and district employees on our way to our 
implementation of our strategic plan, ``Teaching Our Way to the 
Top.''
    The strategic staffing initiative began in the 2007-2008 
school year with 7 schools and has increased each year to a 
total today of 20 schools. As of the 2009-2010 school year, we 
have put in place at 20 of our most academically challenged 
schools some of our most successful principals and teachers 
into these struggling schools. The results have been remarkable 
with student achievement in some schools increasing by more 
than 20 percent on State tests in just 1 year.
    Strategic staffing has five tenets. A great leader is 
needed, a principal with a proven track record of success in 
increasing student achievement. Also, great teachers will not 
go to a troubled school without a great leader as a principal.
    A team with a track record of success needs to go to the 
school so a person is not alone in taking on this challenging 
assignment. There is strength and support in numbers. Staff 
members who are not supportive of reform need to be removed 
from the school.
    Principals must be given the time and authority to reform 
the school and be freed from the district list of ``non-
negotiables that constrain principal autonomy and flexibility. 
Not all job assignments are equal in difficulty, and 
compensation should be varied to match.
    Academic performance as measured by proficiency on State 
tests has risen at nearly every school where we have employed 
strategic staffing. Leadership at a school matters because the 
principal is the key lever for change. With the right principal 
and a strong core team of effective teachers in place, 
achievement rises and the school improves in other ways as 
well.
    For teacher effectiveness and for pay for performance, we 
again would believe that every child deserves an effective 
teacher. Great teaching lifts every child in a classroom. And 
when that happens, student achievement goes up. We are 
reshaping the way we train, evaluate, and compensate our 
teachers. This is a very broad-based reform initiative that is 
being launched in multiple ways.
    We began this work 2 years ago with the Department of 
Education Teacher Incentive Fund Leadership for Educators' 
Advanced Performance initiative that is helping us pilot 
measures of teacher effectiveness using student learning 
objectives as a measure. We have been invited to take part in a 
national 2-year study to measure effective teaching funded by 
the Bill and Melinda Gates Foundation.
    The Strategic Data Project at Harvard has done another 
study of CMS that is the most in-depth research done on our 
teachers to date. Using student performance to measure teacher 
effectiveness, this study found very little correlation between 
teacher effectiveness as measured by student performance and 
advanced degrees.
    Some positive effects were detected for teachers with 
national board certification. Other factors affecting teacher 
performance that were evaluated by the study included which 
undergraduate institution the teacher attended and whether a 
teacher was hired late after the school year began.
    The study also found that nearly all of the improvement 
that occurs as teachers gain experience comes in the first 3 
years of teaching. Therefore, we are focused on managing 
teacher performance by evaluating them based on student 
learning rather than choosing them based on experience or 
degrees. We are beginning with teachers, but ultimately, all 
employees in the Charlotte-Mecklenburg schools will be managed 
using pay for performance.
    We will develop a system of multiple indicators of 
effectiveness for each job in this district and use it to 
measure and compensate all employees. We also will be 
submitting an alternative compensation plan to the Department 
of Public Instruction and our legislative body as a potential 
to inform the work across the State.
    Thank you.
    [The prepared statement of Ms. Clark follows:]

                Prepared Statement of Ann Blakeney Clark

    Good morning, Senator Hagan. Thank you for the opportunity to tell 
you and your colleagues about some of the innovative work we're doing 
in Charlotte-Mecklenburg Schools. I'd like to tell you about three 
important initiatives now underway in CMS.
    All three of the initiatives are focused on improving the 
performance of adults, rather than children. That's deliberate. We know 
that if our teachers, principals and administrators do a great job, 
then our students will achieve more. Every student can learn--as 
educators, we know that. We just have to do a better job of teaching 
every student. Strategic Staffing, Measuring Teacher Effectiveness and 
Pay for Performance are three CMS initiatives intended to increase the 
performance of teachers, principals and district employees.

                           STRATEGIC STAFFING

    The Strategic Staffing initiative began in the 2007-2008 school 
year with seven schools and has increased each year. As of the 2009-
2010 school year, we have put it into place at 20 of our most 
academically challenged schools. Without intervention, any 
underperforming school can find itself trapped in a cycle of failure: 
Ineffective teachers and weak administrators lead to poor academic 
performance, which makes the school unattractive to the successful 
teachers and strong principals who could improve it. With the same 
staff and the same problems year after year, poor results become the 
norm--and a culture of failure takes root.
    Strategic Staffing addresses this challenge by putting some of our 
most successful principals and teachers into some of our most 
struggling schools. The results have been remarkable, with student 
achievement in some schools increasing by more than 20 percentage 
points on State tests in a year. Strategic Staffing is based on five 
tenets:

    <bullet> A great leader is needed, a principal with a proven track 
record of success in increasing student achievement. Also, great 
teachers will not go to a troubled school without a great leader as 
principal.
    <bullet> A team with a track record of success needs to go to the 
school so a person is not alone in taking on this challenging 
assignment; there is strength and support in numbers.
    <bullet> Staff members who are not supportive of reform need to be 
removed from the school.
    <bullet> Principals must be given the time and authority to reform 
the school, and be freed from the district list of ``non-negotiables'' 
that constrain autonomy.
    <bullet> Not all job assignments are equal in difficulty and 
compensation should be varied to match.

    Let me tell you about one school in CMS that has benefited from 
Strategic Staffing: Sterling Elementary. At the end of 2008, student 
performance on State tests had fallen dramatically over the preceding 2 
years. By 2008, only 29 percent of students had tested at proficient or 
above in both reading and math compared to 52 percent in 2006. Sterling 
also had enrollment challenges. Nearly 90 percent of students were 
categorized as economically disadvantaged and Sterling's students with 
limited english proficiency were increasing. Furthermore, surveys 
showed the school's teachers were becoming increasingly unhappy with 
their jobs and with the school.
    A year later--in spring 2009--the picture was very different. 
Sterling was moving in a new direction. The percentage of students 
scoring at proficient or above on EOG tests had risen dramatically, far 
exceeding average district increases in math and reading: a 23 percent 
jump in math and a 14 percent jump in reading (without retesting). The 
school had become orderly, with smooth transitions between classrooms 
and sparkling facilities. Teachers tracked student progress and sent 
reports to parents, and the teachers were using twice-weekly, 90-minute 
planning periods to write common assessments, review data, and discuss 
what needed to be done to help students achieve even more.
    As Sterling Elementary shows, Strategic Staffing can turn a 
struggling school around. Academic performance, as measured by 
proficiency on State tests, has risen at nearly every school where we 
have employed it. Leadership at a school matters because the principal 
is the key lever for change. With the right principal and a strong core 
team in place, achievement rises and the school improves in other ways 
as well.

            MEASURING EFFECTIVE TEACHING/PAY FOR PERFORMANCE

    For too long, many people have casually assumed that teaching can 
be done by anyone willing to assemble a lesson plan and show up in 
class. The truth is, it can't. Great teachers bring enormous amounts of 
skill and heart to the job. Not everyone has the ability to be a great 
teacher--a point once made by the great violinist Jascha Heifetz. After 
a brilliant career playing the violin, Heifetz took a job as professor 
of music at UCLA. Someone asked him what had prompted his move to 
teaching, and he replied, ``Violin-playing is a perishable art. It must 
be passed on as a personal skill. Otherwise it is lost. I remember my 
old violin professor in Russia. He said that someday I would be good 
enough to teach.''
    At CMS, we believe that every child deserves a teacher who is good 
enough to teach. Every child deserves an effective teacher because it's 
so directly linked to achievement: The most important school-based 
factor in student learning is the classroom teacher. Great teaching 
doesn't benefit just one group or one kind of student. Great teaching 
lifts every child in a classroom--and when that happens, student 
achievement goes up.
    So CMS is working to recruit and retain great teachers by reshaping 
the way we train, evaluate and compensate our teachers. This is a very 
broad-based reform initiative that is being launched in multiple ways.
    We began this work 2 years ago with a Teacher Incentive Fund-
Leadership for Educators' Advanced Performance initiative that is 
helping us pilot measures of teaching effectiveness using student 
learning objectives as a measure. CMS has also partnered with nearby 
Davidson College and the University of North Carolina at Charlotte to 
create a Charlotte Teachers Institute, which will train CMS teachers in 
scholarly content using the Yale National Initiative as a model. In 
addition, we have been invited to take part in a national 2-year study 
to measure effective teaching funded by the Bill & Melinda Gates 
Foundation. That study, which will look at several districts across the 
United States, is part of the Gates-funded Strategic Data Project at 
Harvard, a national education initiative to help education leaders use 
data effectively to improve instruction and increase student 
achievement.
    CMS is the focus of another study by the Strategic Data Project 
that is the most in-depth research done on our teachers to date. The 
Center for Education Policy Research at Harvard, led by Dr. Jon 
Fullerton, examined teacher performance in the district as well as 
recruitment, retention, development and credentials. The study used 
results in reading and math for grades four through eight for the 
period from 2003-2009, and it found very little correlation between 
teacher effectiveness, as measured by student performance, and advanced 
degrees.
    Some positive effects were detected for teachers with National 
Board certification. Other factors affecting teacher performance that 
were evaluated by the study included which undergraduate institution 
the teacher attended and whether a teacher was hired late (after the 
school year began). The study also found that nearly all of the 
improvement that occurs as teachers gain experience comes in the first 
3 years of teaching. It also found that how a teacher enters the 
profession makes little difference in performance after 5 years--non-
traditional routes to certification do not affect performance.
    At CMS, we are finding that great teachers are diverse. They come 
in all shapes and sizes. Some have master's degrees. Some don't. Some 
have National Board certification. Some don't. Some are veterans. Some 
are in the second or third year of teaching.
    That diversity makes it impossible for us to accurately predict 
who's going to be a great teacher and who isn't. But we are learning 
what is not an accurate predictor: National research and research done 
by Harvard on CMS in particular shows that degrees and experience are 
not predictors of teaching excellence.
    Therefore we are focusing on managing teachers' performance by 
evaluating them based on student learning. Pay for performance allows 
teachers to set high goals and be promptly rewarded for attaining them. 
This is a more equitable system than seniority or degree-based 
compensation because it is focused on student outcomes. What matters 
most is how well the student is educated, not the teacher!
    For teachers, pay for performance is actually a five-part plan. The 
five parts are:

    <bullet> Define it: Clearly define and measure teacher 
effectiveness.
    <bullet> Hire it: Base teacher recruitment on effectiveness.
    <bullet> Develop it: Provide access to training to help teachers 
improve.
    <bullet> Manage it: Provide accurate, timely and relevant data on 
teacher performance.
    <bullet> Pay for it: Revise the compensation structure so it is 
aligned with performance.

    Standards of effective teaching must be based on effectiveness in 
the classroom and student outcomes--how much students learn. We are 
using five core principles in the development of standards to measure 
effective teaching: We will work with our employees on this new way to 
measure performance. We will approach this work in a thoughtful, 
deliberate way. We will be truthful and transparent about this work. We 
will communicate clearly and regularly about this work. We are going to 
be innovative and creative, and we will resist false either-or choices.
    We are beginning with teachers, but ultimately, all employees in 
CMS will be managed using pay for performance. We will develop a system 
of multiple indicators of effectiveness for each job in the district 
and use it to measure and compensate all employees.

    Senator Hagan. Thank you, Ms. Clark.
    Dr. Arbuckle.

  STATEMENT OF MARGARET BOURDEAUX ARBUCKLE, Ph.D., EXECUTIVE 
     DIRECTOR, GUILFORD EDUCATION ALLIANCE, GREENSBORO, NC

    Mrs. Arbuckle. Good morning. It is a pleasure to be here 
and appear before this committee and be with my good friend, 
Senator Hagan.
    Guilford County Schools has a history of innovation, having 
been one of the first to provide early and middle colleges 
offering students alternative routes to graduation. It launched 
the State's first in-house licensure program, and it is 
providing North Carolina's first comprehensive pay-for-
performance model, Mission Possible.
    In the 2005-2006 school year, principals who were 
recruiting teachers complained loudly that when they were 
attending teacher recruitment fairs, the schools in our 
district with high-needs student populations found themselves 
competing unsuccessfully for high-quality teachers, as new 
teachers preferred entering our more affluent schools. Led by 
the superintendent, teacher focus groups were formed and 
teachers were asked, ``What would it take to attract you and 
other teachers to our high-needs schools?''
    Following much discussion, several specific things were 
identified--strong, experienced principals; financial 
incentives, particularly to teach the tested subjects; 
performance compensation for academic results; relevant 
professional development with instructional coaches who are 
experienced master teachers; and smaller class sizes.
    Using criteria of teacher turnover rates, socioeconomic 
levels, adequate yearly progress, and ABC growth models, 
schools were selected. Initially, funding for the program was 
found by redirecting funds, resulting in over $2 million in 
local dollars to fund the four components of the program--
compensation incentives, performance accountability, 
professional development and capacity building, and structural 
support for recruitment bonuses.
    The outcomes for Mission Possible are well described on our 
Guilford County Schools Web site. But in summary, they are: the 
impact of Mission Possible has been great in terms of 
maintaining faculty within our high-needs schools; providing 
appropriate differentiated professional development; and 
improvement in school climate as measured by a special measure 
developed specifically for the Mission Possible schools.
    However, there remains concern of whether there will be 
increased student achievement, a long-term, 5- to 6-year 
outcome. Using the ABC growth model, our students' achievement 
is improving, but many are not yet achieving grade-level 
proficiency.
    There are several explanations for this at this time. 
Changing a school's faculty takes time in order to result in 
having the total number of highly qualified, course-certified 
teachers in all positions.
    Based on the 1996 Sanders & Rivers research on impact of 
effective teaching on students' increased academic performance, 
we know that, on average, fifth grade students with highly 
effective teachers 3 years in a row will score 50 percentile 
points higher on State-level exams than their peers. But in 
reverse, for students who have historically had ineffective 
teachers, it takes years to overcome this deficit.
    Students enrolled in these high-need schools have multiple 
issues that present high challenges to their academic success--
family poverty, family illiteracy, home mobility, health, and 
mental health issues. These must be addressed, as well as 
providing the students with effective teachers.
    There are many lessons learned through the process of 
developing and implementing Guilford County's Mission Possible 
initiative. The attraction of subject-matter qualified teachers 
for our highly impacted, low-performing schools has been quite 
successful.
    However, it is important to remind public policy makers 
that educational change takes time. Investment of resources, 
both financial and personnel, and flexibility is important.
    For too long, we have had ``cookie cutter'' approaches to 
education, requiring all teachers to attend the same workshops 
no matter the relevance, paying teachers the same amount no 
matter their students' outcomes, and not recognizing that 
students have very differentiated needs. We must provide the 
support and guidance to our teachers to meet each child's 
individual educational needs.
    [The prepared statement of Ms. Arbuckle follows:]

        Prepared Statement of Margaret Bourdeaux Arbuckle, Ph.D.

    Good Morning. I am Margaret Bourdeaux Arbuckle, Executive Director 
of Guilford Education Alliance. Guilford Education Alliance is a 
countywide non-profit organization whose mission is to make quality 
education the top priority for our community in order for every person 
to achieve his educational potential. We conduct research, publish 
reports, convene education summits and community forums on specific 
education issues, advocate for funding for our public schools, connect 
resources into classrooms, and show case schools and students through 
community engagement activities. We are an affiliate of the national 
Public Education Network and are part of a network of North Carolina 
community-based independent non-profit educational advocacy 
organizations. We work closely with the Guilford County Public School 
District but we do not work for the district. We support many of the 
District's efforts but also provide appropriate feedback to the Board 
of Education and the Administration when change is needed.
    Guilford County Schools has a history of innovation having been 
among the first to provide early and middle colleges offering students 
alternative routes to graduation, launching the State's first in-house 
licensure program for alternatively certified teachers and in providing 
North Carolina's first comprehensive pay for performance model, Mission 
Possible. Additionally the school district partners with Head Start and 
our State Smart Start/More at Four programs to provide pre-K programs 
to over 70 percent of identified at-risk young children.
    For background, the Guilford County School District hosts 120 
schools with over 72,000 students in 67 elementary, 22 middle, and 26 
high schools, 14 traditional high schools and 8 middle/early colleges, 
and 7 alternative schools. There are 17 magnet schools and four 
International Baccalaureate high schools. Guilford County had three 
schools with 100 percent graduation and three with 95 percent 
graduation last school year. Guilford County Schools is the largest 
employer in the region with close to 10,000 employees.
    But also, Guilford County Schools hosts 10 of the 75 low-performing 
schools in our State, representative of all levels. This year the 
percentage of students on Free/Reduced Lunch has grown to over 53 
percent and there are over 150 languages/dialects spoken in our 
students' homes representative of over 142 different cultural/ethnic 
groups.
    To address these many challenges, particularly those within our 
low-performing/high-need schools, the district initiated a focused pay-
for-performance model several years ago. This morning I will discuss 
Mission Possible, the pay for performance model with you.
    During the 2005-2006 school year, principals recruiting teachers 
complained loudly that when attending teacher recruitment fairs, the 
schools in our district with high-needs student populations found 
themselves competing unsuccessfully for teachers as new teachers 
preferred entering our more affluent schools. In particular, teacher 
applications to teach mathematics was at a very low number and the 
teacher turnover at our high-needs schools was very great. It was 
challenging to place an experienced principal at these schools and thus 
many had young inexperienced leaders.
    Led by the Superintendent, teacher focus groups were formed and 
teachers were asked, ``What would it take to attract you and other 
teachers to our high-needs schools?'' Following much discussion, 
several specific things were identified: (1) strong experienced 
principals, (2) financial incentives, particularly to teach the End of 
Grade-tested subjects, English and math, (3) performance compensation 
for academic results, (4) relevant professional development with 
instructional coaches who were experienced master teachers, and (5) 
smaller class sizes.
    Historically North Carolina teachers have been paid on the basis of 
academic degrees earned and longevity/experience in the position; this 
was true for all Guilford County teachers. Also, the staff development 
program was expansive but was workshop oriented with everyone's 
participation expected. Class sizes varied upon grade level but 
generally the high-need schools did not have surrogate Gifted/Talented 
teachers that provided for an overall lower teacher/student ratio.
    Having the ideas from the teacher focus groups, the Superintendent 
put the idea of differentiated pay ``on the table'' for discussion in 
the community. Immediately there was press attention to it and great 
interest in the idea. Following rather heated discussion with the 
teachers' organization which resulted in the question being posed, 
``what would you propose to recruit and retain teachers in our high-
poverty schools?'' which resulted in silence as the response, 
conversations with the business community, leadership of Guilford 
Education Alliance and others, the Superintendent proposed to the Board 
of Education in the spring of 2006 the funding of the Mission Possible 
program for 20 selected schools.
    Using criteria of teacher turnover rates, socioeconomic levels, 
Adequate Yearly Progress (AYP) and ABC growth models, schools were 
selected. Initially the funding for the program was found by 
redirecting funds through raising the class size in the fifth grade by 
.5 student/class and not filling 30 vacant teaching positions resulting 
in $2,073,624 in local dollars to fund the four components of the 
program: Compensation Incentives, Performance Accountability, 
Professional Development and Capacity Building, and Structural Support.
    In today's discussion about School Reform initiatives, 
differentiated compensation has gained momentum but in 2006 this was 
seen as a very innovative, all but radical, proposal, particularly in 
North Carolina where teacher pay had such a long history of its being 
based on experience. Teachers joined the workforce making approximately 
$32,000/year and after 10 years of experience made about $8,000 more, 
including local pay supplements. Therefore to consider teachers being 
offered incentive pay to teach in specific schools and provided 
compensation for student performance created much attention.
    After the initial implementation, the UNC Administration and the 
local foundation community offered to expand the program with specific 
focus on teaching mathematics in high schools. Through the private 
funding, high school math teachers were provided a laptop, classroom 
technology, math coaching, summer institutes and an additional $4,000 
stipend for attending the training programs. Following this 
implementation, Guilford County Schools became the first district to 
receive a Federal Teacher Incentive Fund grant of $8 million to 
differentiate teacher salaries. These additional dollars resulted in 30 
Mission Possible Schools identified for the 2007-2008 School Year and 
continuing henceforth.
    Agreed upon pay incentives are based on value-added scores for 
student academic performance. Teachers who produce gains of 1.0-1.49 
above the district value-added mean receive a bonus of $2,500 and those 
who produce gains of 1.5 or more above the mean receive $4,000.

                    Recruitment/Retention Incentives
------------------------------------------------------------------------
                           Position                            Incentive
------------------------------------------------------------------------
K-5..........................................................     $2,500
6-8 Language Arts or Reading.................................     $2,500
6-12 Math without a math degree or 24 content hours (C or         $2,500
 above)......................................................
6-12 Math with a math degree or 24 content hours (C or above)     $9,000
Algebra I....................................................    $10,000
English I....................................................     $2,500
Elementary Principal.........................................     $5,000
Middle School Principal......................................     $7,500
High School Principal........................................    $10,000
------------------------------------------------------------------------


                         Performance Incentives
------------------------------------------------------------------------
                                                  Level I      Level II
                   Position                      (>1.0 SE)    (>1.5 SE)
------------------------------------------------------------------------
K-2...........................................          Not          Not
                                                   Eligible     Eligible
3-5 Composite EOG.............................       $2,500       $4,000
6-8 LA/Reading................................       $2,500       $4,000
6-12 Math.....................................       $2,500       $4,000
Algebra I.....................................       $2,500       $4,000
English I.....................................       $2,500       $4,000
------------------------------------------------------------------------


                         Performance Incentives
------------------------------------------------------------------------
                                          Level I     School    Level II
                Position                   (>50%)   Makes AYP    (>75%)
------------------------------------------------------------------------
IB and AP Math.........................     $2,500                $4,000
Principal..............................                $5,000
Curriculum Facilitator.................                $2,500
------------------------------------------------------------------------

    The Outcomes for Mission Possible have been published on the 
Guilford County Schools Web site, www.gcsnc.com/depts.mission_possible. 
In summary they are:

    <bullet> For all 3 years of implementation, 100 percent of Mission 
Possible Positions were staffed on the first day of school.
    <bullet> The quality of the applicants for the teaching positions 
are more experienced and more qualified, licensed in English or Math.
    <bullet> Professional Development participation has been 100 
percent Year 1, 99 percent year 2, and 95 percent Year 3 with 
evaluations of over 4.5 on a 1-5 point Likert Scale.
    <bullet> The Professional Development has been differentiated per 
teacher need.
    <bullet> From 2006-2007 to 2008-2009 school years, a total of 
$1,017,710 has been awarded for Value-Added Performance Awards 
representing from 13 percent to 75 percent of teachers for each course 
measured, depending upon the course/level.
    <bullet> There is a shift in the population of teachers who are 
receiving Level I value-added bonuses to increasing numbers receiving 
Level II value-added bonuses.
    <bullet> All but two of the schools received Performance Awards.
    <bullet> The Faculty Attrition Data was 11.7 percent as compared to 
12.8 percent for the District average.

    The impact of Mission Possible has been great in terms of 
maintaining faculty within high-needs schools, providing appropriate 
differentiated professional development and improvement in School 
Climate as measured by a School Climate Indicator developed 
specifically for Mission Possible Schools.
    However, there remains concern in whether there will be Increased 
Student Achievement, a Long Term (5-6 year) Outcome. Using the ABC 
Growth Model our students' achievement is improving but many are not 
achieving grade level proficiency. There are several explanations for 
why this is so at this time:

    1. Changing the faculty takes time in order to result in having the 
total number of highly qualified, course-certified teachers in all 
positions. For example, there can be 85 faculty members in a middle 
school and 4-5 of these positions change in a given year. It takes 
multiple years to replace all of the faculty.
    2. Based on the 1966 Sanders & Rivers research on impact of 
effective teachers on students increased academic performance, we know 
that on average 5th grade students with highly effective teachers 3 
years in a row will score 50 percentile points higher on State-level 
exams than their peers. But in reverse, students who have historically 
had ineffective teachers, it takes years to overcome this deficit.
    3. Students enrolled in these high need schools have multiple 
issues that present high challenges to their academic success: family 
poverty, family illiteracy, home mobility, health and mental health 
issues. These must be addressed as well as providing the students with 
effective teachers.

    There are many lessons learned through the process of developing 
and implementing Guilford County's Mission Possible Initiative. The 
attraction of subject-matter qualified teachers for our highly 
impacted, low-performing schools has been quite successful. However, it 
is important to remind public policymakers that educational change 
takes time, investment of resources both financial and personnel, and 
that flexibility is important. For too long, we have had ``cookie 
cutter'' approaches to education, requiring all teachers to attend the 
same workshops no matter the relevance, paying teachers the same amount 
no matter their students' outcomes, and recognizing that students have 
very differentiated needs. We must provide the support and guidance to 
our teachers to meet each child's educational needs.

    Senator Hagan. Thank you very much.
    Dr. Setser.

 STATEMENT OF BRYAN SETSER, EXECUTIVE DIRECTOR, NORTH CAROLINA 
              VIRTUAL PUBLIC SCHOOLS, RALEIGH, NC

    Mr. Setser. Thank you, Senator Hagan, for the opportunity 
for the North Carolina Virtual Public School to attend today 
and share our good news in North Carolina, as well as 
nationally.
    In the year 2000, the Florida Virtual School launched as 
the Nation's first virtual school. Today, there are now over 42 
virtual schools in this country. Your North Carolina virtual 
school ranks in the top five in all metrics, including 
enrollment, where we are second.
    In the year 2000, there were 40,000 students nationwide 
taking virtual courses. Today, there are over 2.7 million. If 
you look to any expert in the field, including the recent U.S. 
Department of Education's meta analysis of over 50 online 
learning studies, half of all students will learn online in 
2020.
    So when we look at those types of metrics, what does that 
mean for service options in our States and for our parents, our 
students, and educators? What does it mean in terms of learning 
options and one-to-one laptops, one-to-one iPads, or one-to-one 
mobile devices?
    Several things are brought to mind in terms of innovation 
with where we are. Online learning in the K-12 space is over 10 
years old. That means that simply taking a course on the 
Internet is now a classic model. But yet, when we look at 
penetration across North Carolina or across the Nation, less 
than 1 percent of the students are still meeting this metric.
    That means that if you go across North Carolina, some 
districts have 1,000 students enrolled and some districts have 
15. Yet 75 percent is the enrollment rate per semester in terms 
of growth. So as schools look at these service options across 
how they will deliver training to principals, superintendents, 
counselors, teachers, and how they will provide this access to 
students, four service options are emerging for us all to think 
about.
    Every school in 2020 will have a classic online learning 
option. They will have courses accessed before school and after 
school. In that same year, in 2020, every school will have a 
modular application. What that means is students can be 
diagnosed, assessed, and just take a portion of the course they 
missed.
    Every school most likely will have a mobile option, where 
they will be accessing content, as they are in Arizona and 
Alabama, on school buses before school and after school, giving 
feedback once they arrive at the schoolhouse and then 
disseminating those devices again as they leave it.
    And finally, we will all search for ways to blend those 
components. We are not advocating in North Carolina nor 
nationally that every student learns online the best or every 
student learns in a face-to-face situation the best. The final 
service option is blended. We need to look for ways for 
teachers, educators, leaders, and students to access online 
content anytime, anywhere, any path, or any pace.
    To create such an environment, you have heard from many of 
our panelists who are talking about Innovation 3 funding, which 
we are very appreciative of Ms. Shah and the Department of 
Education in looking at ways for programs like ourselves to 
participate in that national letter of intent, and also for 
ways for us to train teachers and leaders across States in 
these endeavors.
    I think when you hear from Dr. Garland today and the work 
around diagnostic testing and everything being offered on a 
State-wide learning management system, one of the reasons that 
the 2020 vision is very critical is that students want to learn 
this way. When they arrive at school, they are asked to power 
down, to cut off their devices. But that is not the case in 
Onslow County or Durham County, where students are using smart 
phones to access Algebra I content, and results are up 14 
percent on all State metrics.
    So as we look to comprehensively plan, we need to stop 
referring to technology as a tool. Technology is now a 
strategic learning process, and every school district, every 
school should sit down and think of ways for that delivery 
system to continue to engage children, to continue to engage 
the parents, and to connect to a learning management system 
that can produce results.
    As I close my comments today, those results are very 
strong, that U.S. DOE analysis in 2009 concluded that online 
learning on all metrics was as good or better than face-to-
face, particularly when partnering with blended instructors, 
when partnering with blended leadership and blended counselors. 
In North Carolina, since 2007, our metrics started out in the 
mid-50 percent range. They are now in the 85 percent range in 
student performance, as well as a 97 percent completion rate.
    As we look at these options, the question is not whether or 
not we have a crisis of how to use technology. The question is 
do we have a crisis in leadership and execution in terms of how 
we deploy that technology?
    As we roll out the North Carolina virtual learning plan for 
this year, we are partnering with school districts. We are 
partnering with national initiatives to bring even more access 
to students, and I think you will see a day when this type of 
repository of information is accessible anytime, anywhere, to 
any parent, any student, and they can make more informed 
choices about their learning.
    [The prepared statement of Mr. Setser follows:]

                   Prepared Statement of Bryan Setser

    NCVPS is honored to be a part of Senator Hagan's Field Committee 
Hearing on ``Fostering Innovation in Education.'' Our testimony today 
in the North Carolina innovation space includes a description of NCVPS, 
statutory requirements, services, and results for North Carolina 
students, educators, and citizens. Our national reputation is among the 
Top 5 virtual schools in the country, yet our usage level in North 
Carolina is still less than 1 percent of the total student population, 
and this is with a growth rate of 75 percent enrollment per semester. 
Since 2007, we have served over 65,000 North Carolina students and 
propelled over 9,300 to receive free college credit while in high 
school.
    However, as many students and parents find out at their local 
school sites, access to our courses often contains barriers. This is 
why hearings like today are vital. Our students are in a supplemental 
program to the public schools. We offer 77 general courses, 21 advanced 
placement courses, 10 credit recovery courses, and courses for middle 
school students seeking high school credit. In some districts, we have 
over 1,000 participants, and in some districts less than 14. Why the 
disparity? Leadership, education, and execution.
    Our students can take courses anytime, anywhere, any path, and any 
pace. In school districts where the partnerships are strong they take 
these courses before and/or after school, during school, and/or at 
community centers or on vacation. Our model is portable and goes with 
the learner. So there really is no reason to not take advantage of 
NCVPS.
    Through our Getting Organized to Lead Virtual Education effort or 
GO LIVE site we are taking all of these barriers out of the mix. Use 
the site today: http://sites.google.com/site/ncvpsgolive/ or craft 
notes from this testimony as we are here to provide all of North 
Carolina students with world class blended learning opportunities to 
become the globally competitive learners and leaders of tomorrow.

    Senator Hagan. Thank you.
    Mr. Rectanus.

     STATEMENT OF KARL RECTANUS, LEADER, NC STEM COMMUNITY 
                   COLLABORATIVE, DURHAM, NC

    Mr. Rectanus. Thank you, Senator Hagan, for your leadership 
and for holding this hearing in a State that has been dedicated 
to innovation since even before the Wright brothers took their 
first flight on the coast.
    I want to acknowledge the efforts of the leaders here. I 
would also like to briefly acknowledge the wonderful educator 
Jessica Garner, who is our North Carolina Teacher of the Year 
from Union County, who has also joined us.
    Education is not simply about teaching and learning and 
graduation. It is the basis for economic prosperity. Education 
should be equitable so that all have the opportunity to be 
informed citizens and can thrive economically and civically in 
our now global environment. In fact, the Governor's college and 
career Ready, Set, Go, as well as the Lieutenant Governor's 
Joining Our Business and Schools Commission, has been driving 
this message across the State.
    Increasingly, however, our education system in the United 
States is not meeting our needs for informed science, 
technology, engineering, and math-trained students. Everyone 
needs some basics of STEM literacy to function in today's 
world. Every single major challenge this country faces will be 
affected and impacted, and we will need STEM skills to solve 
it.
    In addition, our need for STEM-skilled workers has never 
been greater. This is not merely about doctors and researchers, 
but about the majority of jobs. The Kauffman Foundation 
research shows that 62 percent of our jobs in 2007 required 
STEM skills, and only 21 percent of our students had the 
requisite skills to meet those.
    In fact, I would argue that the best economic stimulus we 
could possibly have is an educated child. It will take all of 
us working together to address that challenge, and I applaud 
your recognition that we have to prepare our children for the 
world they live in, not just the world we came from.
    To do this, we need to take new approaches, but base them 
on proven practices. I have the honor of leading the North 
Carolina STEM Community Collaborative, which is developing a 
State-wide network of communities and access to drive education 
innovation further faster. NC STEM is housed at MCNC and has 
the support of nationally recognized innovators like the Bill 
and Melinda Gates Foundation and the Battelle Memorial 
Institute.
    As you know, MCNC primarily focuses on broadband needs of 
education and public health in the State. We appreciate that 
support. MCNC manages the research and education network--which 
was mentioned earlier, the single broadband network that all of 
our public schools, all of our public universities, and the 
majority of our private universities share to drive education 
innovation--and partners with education, private industry, 
economic development, and foundations. It is a model for 
public-private partnership, and NC STEM builds on this valuable 
State infrastructure to do three things.
    First, we invest in communities, communities ready to 
change the way they prepare their children for their regional 
economic needs. Our State's economy is transitioning from 
manufacturing and agricultural to one steeped in STEM skills. 
Whether a mechanic or a farmer or a doctor or an artist, any 
sector of the workforce, STEM skills are critical.
    NC STEM has developed a community visioning and design 
process that brings systems thinking--that is a STEM approach 
that architects, engineers use--to communities who don't just 
want to do another project, but want to design education 
innovation that is sustainable, scalable, and serves all of the 
children.
    In three communities, Davie County, Lenoir County, and the 
11 counties around Fort Bragg, leaders and community members 
have been working in new ways to change teaching, learning, 
funding, and decisionmaking to bolster their economic strength.
    In Lenoir County, they have designed what they refer to as 
a ``STEM hub.'' It is a central location for experience-based 
learning for all teachers and students, and it is co-located 
with aerospace and other industry partners. In the 11 counties 
around Fort Bragg, they are using a distributed learning 
network with enhanced technology classrooms that changes 
teaching and learning practices across county lines with 21st 
century tools.
    And just down the road in Davie County, they are changing 
the way they recruit, train, and retain teachers, teaming with 
business professionals and collaborating with higher education 
in new ways. This process has been so successful, we will 
extend this into a community in each of the other four economic 
development districts later this spring.
    Second, we connect communities to the broad swath of access 
and resources and experts in North Carolina and other States 
who can best move education innovation further faster. North 
Carolina has a wealth of wonderful and effective programs. Our 
universities have created over 70 different STEM programs.
    One example, the Kenan Fellows program, matches science 
teachers with industry and university scientists. As you 
mentioned, our community colleges have flexible responsiveness 
to our business needs, and our K-12 education industry, 
business, and nonprofit sectors have created a multitude of 
impact on teaching and learning, including a perfect example, 
the North Carolina New Schools Project.
    However, not all of these programs are equal, effective, or 
appropriate for every community. So we focus on ensuring that 
our State assets and others from around the country work 
together to provide children with good choices in life to 
bolster their economic situation.
    Finally, we believe we must consider a new approach to 
funding education innovation. Venture philanthropy, a proven 
model in the public and private sector that provides an 
admirable approach to local capacity-building and ongoing 
sustainability. NC STEM and its partners recognize that 
networks help move innovation further faster. The iPad, iPod, 
Twitter, Google, Facebook are all proven private sector 
examples.
    Our partners believe we need to take another approach from 
the private sector. That is venture capital. What is this 
venture capital and venture philanthropy for innovation? In a 
nutshell, it is about active investment and protecting that 
investment. It is about providing the support and guidance 
needed to take the seed of an idea and allow it to nurture to a 
full flower.
    We aren't the first to utilize this. Obviously, business 
and industry, biotech and IT, have used this for years. Venture 
philanthropy is well documented as a valid model. New Profit, 
New Schools Venture Fund, which Charlotte is a part of, the 
Robin Hood Foundation, and others have helped prove the KIPP 
school model, New Leaders for New Schools, and others across 
the country.
    This is an idea whose time has come. A STEM ventures fund 
would spur innovative approaches----
    Senator Hagan. Just a few more seconds.
    Mr. Rectanus [continuing]. Absolutely. And provide 
expertise, support, and guidance and build local capacity. It 
would also minimize the risk of what we do, improving 
opportunities.
    We believe it also responds to the pace of innovation, 
which is what we need. The pace of legislation as well as 
foundation giving cycles can be added to this approach. So, in 
three ways, building local capacity in communities, networking 
those communities across the State, and investing actively in a 
portfolio of them, we believe we can have great impact on our 
children, families, and economy.
    Thank you so much.
    [The prepared statement of Mr. Rectanus follows:]

                  Prepared Statement of Karl Rectanus

    Thank you, Senator Hagan for your leadership, and holding this 
hearing in a State that has been dedicated to innovation since well 
before the Wright Brothers' first flight on North Carolina's coast.
    Education is not simply about teaching, learning and graduating. 
Education is the basis for economic prosperity. Education should be 
equitable so all have the opportunity to be informed citizens who can 
thrive economically and civically in our now global environment. 
Education is even a nationally security issue--an informed global 
citizen is much more able to interpret and contextualize global events.
    Increasingly our education system in the United States does not 
meet our needs for informed science, technology, engineering, and math 
(or STEM) trained students. Everyone needs some basis of STEM literacy 
to function in today's world. The environment, health care innovations, 
and use of the Internet impacts our daily lives, and every single major 
challenge our country faces this century requires STEM skills to solve.
    In addition, our need for STEM-skilled workers has never been 
greater. This is not merely about doctors and researchers, but about 
the majority of jobs. These are the innovation careers. And our 
children are the inventive minds that will meet the challenges of the 
21st century with new ideas about energy, healthcare, and 
infrastructure. In fact, I would argue that the best economic stimulus 
is an educated child.
    It will take all of us working together to address the challenge. I 
applaud your recognition of the critical need to prepare our children 
for the world they live in, not just the one we came from. To do this 
we must take new approaches, based on proven practices.
    I have the honor of leading the NC STEM Community Collaborative, 
and I appreciate the opportunity to discuss how our State and Nation 
can foster education innovation. NC STEM is developing a statewide 
network of communities and assets who drive education innovation in 
STEM fields further, faster.
    NC STEM is housed at MCNC, with the support of nationally 
recognized innovators including the Bill & Melinda Gates Foundation and 
the Battelle Memorial Institute. As you know, MCNC primarily focuses on 
supporting the broadband needs of education and public health of the 
State of North Carolina. MCNC manages the NC Research and Education 
Network (NCREN). NCREN is the single broadband network that all public 
schools, all public universities, the majority of the private 
universities all share to drive education innovation. MCNC works with 
education, private industry, economic development, foundations and 
private industry--it is a model for public/private partnership. NC STEM 
builds on the valuable State infrastructure asset by doing three 
things.
    First, we invest in communities ready to change the way they 
prepare their children for their regional economic needs. Our State's 
economy is transitioning from manufacturing and agriculture to one 
steeped in STEM skills--advanced manufacturing, aerospace, IT, health 
and biotech. Whether a mechanic, farmer, doctor, artist, or any other 
sector of our workforce, STEM skills are critical, and many communities 
are now willing to change the way they teach and learn to ensure their 
children are able to fill these roles.
    NC STEM has developed a ``Community Visioning & Design Process'' 
that brings a systems-thinking--a STEM approach--to communities who 
don't just want to do a new project, but want to design education 
innovation that is sustainable, scalable, and serves all children. In 
three communities--Davie County, Lenoir County, and the 11 Counties 
around Ft Bragg--leaders and community members are working in new ways 
to change teaching, learning, funding, and decisionmaking to bolster 
the economic strength of their communities. The process has been so 
successful, communities in each of the other four economic development 
regions of the State will implement their own Community Visioning & 
Design Process later this spring.
    Second, we connect communities to the broad swath of assets, 
resources, and experts in NC and other States who can best move 
education innovation further faster. North Carolina has a wealth of 
wonderful, effective programs that impact students. Our universities 
offer over 70 different STEM programs that impact K12 education--for 
example, the Kenan Fellows Program matching science teachers with 
industry and university scientists. Our community colleges have proven 
their flexible responsiveness to business needs. Our K12 education, 
business and non-profit sectors have also created a multitude of 
impactful teaching and learning programs; a wonderful example of this 
is the NC New Schools Project with redesigned high schools and STEM 
Schools.
    However, not all programs are created equal, effective, or 
appropriate for all communities' needs. NC STEM focuses on ensuring 
that our State's assets and others from around the country work 
together to provide children with good choices in life and bolster the 
economic strength of their communities.
    Finally, we believe we must consider a new approach to funding 
education innovation--venture philanthropy, a proven model in the 
public and private sectors that provides an agile approach to local 
capacity building and ongoing sustainability of innovation.
    NC STEM and its partners recognize that networks help move 
innovation further, faster. Of course, the iPad, the iPod, Twitter, 
Facebook, Google and other private sector examples prove the power of 
networks. Our partners believe we need to take another page from 
private sector's efforts to spark innovation--that is, the venture 
capital approach to funding innovation, especially in the STEM arena.
    What's the idea of the Venture Capital, or Venture Philanthropy, to 
drive innovation? In a nutshell, it's about active investment and 
protecting that investment. It's about providing the support and 
guidance needed to take the seed of an idea and nurture it to full 
flower with assistance and financial support.
    We aren't the first to utilize the model. Business and industry has 
nurtured innovation this way with incredible results in IT, Biotech, 
and other industries globally, and here at home. And, Venture 
philanthropy is well-documented as a valid model. National leaders like 
New Profit Inc., the Robin Hood Foundation, New Schools Venture Fund, 
and others have driven great education innovations like the KIPP school 
model and New Leaders for New Schools in regions and across the 
country. Venture Philanthropy encourages a more active role in 
investments to push for faithful and effective implementation of good 
ideas.
    This is an idea whose time has come. A STEMVentures Fund will:

    <bullet> spur innovative approaches;
    <bullet> put capital into ideas and organizations best positioned 
to succeed;
    <bullet> provide the expertise, support, and guidance needed for 
effective implementation and impact;
    <bullet> build local capacity while providing opportunities to 
scale proven practices and programs quickly;
    <bullet> minimize the risk and exposure for public investment 
through private investment and assistance;
    <bullet> support a portfolio of evidence-based innovations rather 
than individual point programs; and
    <bullet> Leverage public investment for multiplier effect with 
private dollars.

    This approach responds to local needs to drive innovation and 
innovative approaches. And it responds at the pace of innovation--not 
the pace of a legislative appropriation process or a foundation giving 
cycle.
    By doing these three things--building local capacity in 
communities, networking their successes across the State, and actively 
investing in a portfolio of sustainable innovation--we believe we can 
ensure we support our children, our families, our economies, and our 
Nation to continue to lead the world.
    Thank you again for your leadership, your support of STEM skills 
and NC's STEM economy, and your willingness to help North Carolina lead 
the world in education innovation.

    Senator Hagan. Thank you.
    Mrs. McCray.

   STATEMENT OF MARY McCRAY, TEACHER, COMMUNITY HOUSE MIDDLE 
    SCHOOL AND LOCAL PRESIDENT OF THE CHARLOTTE-MECKLENBURG 
                    ASSOCIATION OF EDUCATORS

    Ms. McCray. Good morning, Senator.
    I thank you for the opportunity to give the perspective of 
my colleagues, who are here on the front lines of CMS every 
day.
    Charlotte-Mecklenburg Schools lost 843 educators last year, 
nearly one-half of those were classroom teachers and a quarter 
were teacher assistants. With instructional support personnel 
counted, Charlotte-Mecklenburg cut 710 educators from the 
classroom out of 843 total cuts. That is 84 percent of all cuts 
coming from children's teachers and teacher assistants.
    Before we talk about innovation, before we begin any 
discussion on experiments, Charlotte-Mecklenburg and the State 
of North Carolina needs to master the most elementary 
requirement for schools. It needs a qualified teacher standing 
before ready-to-learn students.
    Innovators and academics can present all the studies and 
talk about all the new ideas at any given conference. We can 
create programs, we can bring in technology, and we can shift 
our paradigms and think outside the box. However, it always 
comes back to a teacher standing in the classroom, teaching 
children who are ready to learn.
    Innovation is nothing new to schools, especially here in 
Charlotte-Mecklenburg. We have large numbers of students who 
earn college credit in high school, strategic staffing along 
with pay for performance in our hard-to-staff or low-performing 
schools. We have implemented the New Schools Project with 
success on the campuses of two of our high schools, and many 
more examples.
    But the reality is that there are teachers who are teaching 
nearly 40 children in a classroom that only seats 30 students 
and has 25 textbooks. We are preparing children for 
universities, careers, and military service with fewer 
resources than we have had in a generation.
    Our teachers are also innovating at home as we deal with 
furloughed pay, higher healthcare premiums for our children, 
and our North Carolina ABC pay-for-performance testing program 
that hasn't paid us for our successful performance in 2 years.
    Please do not misunderstand me. Public schools do require 
innovation. In an economic climate that has left K-12 public 
education without the needed resources to provide a 
constitutionally required sound basic education, we need 
innovation more so now than ever.
    I propose that we create a tax system in North Carolina 
that produces the resources required to put one teacher in 
front of a classroom with no more than 22 students. I propose 
that we transition our current tax system in North Carolina 
from an agrarian-based tax system to one that recognizes that 
we are now an economy based on services and technology, not 
bartering and manufacturing. Let us also create a baseline 
funding system for K-12 public education that recognizes the 
limitations of local funding capabilities.
    The Federal Government can play a role in protecting the 
5,500 jobs that were cut in North Carolina last year. I ask 
that this Administration and the Congress invest in public 
schools and its students during this critical time. Now is not 
the time to divest, privatize, or devise gimmicks.
    To promote innovation in public schools, we must think 
beyond creating more charter schools. Charter schools are only 
one strategy to afford innovation in a community. Schools that 
have proven track records based on multiple indicators should 
be allowed educational flexibility to try innovative 
strategies.
    In North Carolina, we have a variety of those innovative 
strategies, such as magnet programs, language emersion 
programs, Learn and Earn, early and middle colleges. Another 
innovative approach might be creating learning lab schools with 
universities to implement research-based innovations that 
impact student achievement.
    Additionally, new and innovative approaches for public 
schools must entail reviewing the manner in which we assess 
students, evaluate teachers, and fund innovation. North 
Carolina has an edge on supporting effective educators with the 
principal and teachers evaluation process. This new evaluation 
process has created in most schools climates of collaboration, 
self-reflection, and professional learning communities where 
instruction is data-driven to maximize student success.
    The evaluation of educators cannot be solely based on 
student test scores. There are many ways that a teacher or a 
principal impacts a student's growth. To elevate the most noble 
profession, we must have policies in place that help create 
more respect for educators and stop the divisive policies that 
create barriers from collaboration, such as merit or 
differentiated pay.
    To be an educator, one needs to have skills as well as 
knowledge and training. Saying anyone can come and teach if 
they have the desire to make a difference does not create 
professional respect. The Federal Government does not need to 
tell States how to evaluate educators, nor does the Federal 
Government need to set policies on who schools should hire.
    Senator Hagan. Mrs. McCray, just a few more seconds. 
Thanks.
    Ms. McCray. As we push forward for innovation, we must 
remember that every child has equal rights to a quality public 
education, and fully funding that education is a baseline for 
student success.
    I appreciate the opportunity to be a witness today, and I 
look forward to continuing this dialogue in the hopes for a 
better and brighter future for all of our students.
    Thank you.
    [The prepared statement of Ms. McCray follows:]

                   Prepared Statement of Mary McCray

    Good morning. My name is Mary McCray. I am an elementary teacher of 
5th grade here in Charlotte-Mecklenburg. I am also president of the 
Charlotte-Mecklenburg Association of Educators. CMAE is an affiliate of 
the North Carolina Association of Educators and the National Education 
Association.
    I thank you for the opportunity to give the perspective of my 
colleagues, classroom teachers, who are on the front lines in CMS every 
day.
    Charlotte-Mecklenburg Schools lost 843 educators last year, nearly 
\1/2\ of those were classroom teachers and a quarter was teacher 
assistants. With instructional support personnel counted, Charlotte-
Mecklenburg cut 710 educators from the classroom out of 843 total cuts. 
That is 84 percent of all cuts coming from children's teachers and 
teacher assistants.
    Before we talk about innovation, before we begin any discussion on 
experiments, Charlotte-Mecklenburg and the State of North Carolina 
needs to master the most elementary requirement for schools: It needs a 
qualified teacher standing before ready-to-learn students. Innovators 
and academics can present all the studies and talk about all the new 
ideas at any given conference. We can create programs, we can bring in 
technology, and we can shift our paradigms, and think outside the box. 
However, it always comes back to a teacher standing in the classroom, 
teaching children who are ready to learn.
    Innovation is nothing new to schools, especially in Charlotte-
Mecklenburg. We have large numbers of students who earn college credit 
in high school, strategic staffing along with pay for performance in 
our hard to staff or low-performing schools, we've implemented the New 
Schools Projects with some success on the campuses of two of our high 
schools--that is considered ``schools within a school,'' and many more 
examples. But the reality is that there are teachers who are teaching 
nearly 40 children in a classroom that only seats 30 students and has 
25 textbooks. We are preparing children for universities, careers, and 
military service with fewer resources than we've had in a generation. 
Our teachers are also innovating at home as we deal with furloughed 
pay, higher health care premiums for our children, and an ABC pay-for-
performance testing program that hasn't paid us for our performance in 
2 years.
    Please do not misunderstand me. Public schools require innovation. 
In an economic climate that has left K-12 public education without the 
needed resources to provide a constitutionally required sound basic 
education, we need innovation now more than ever. I propose that we 
create a tax system in North Carolina that produces the resources 
required to put 1 teacher in front of a classroom with no more than 22 
students. I propose that we transition our current tax system in North 
Carolina from an agrarian based tax system to one that recognizes that 
we are an economy-based on services and technology not bartering and 
manufacturing. Let's also create a baseline funding system for K-12 
public education that recognizes the limitations of local funding 
capabilities.
    The Federal Government can play this important role in protecting 
the 5,500 education jobs that were cut in North Carolina last year. I 
ask that this Administration and the Congress invest in public schools 
and its students during this critical time. Now is not the time to 
divest, privatize or devise gimmicks.
    To promote innovation in public schools we must think beyond 
creating more charter schools. Charter schools are only one strategy to 
afford innovation in a community. Schools that have proven track 
records based on multiple indicators should be allowed educational 
flexibility to try innovative strategies. In North Carolina we have a 
variety of innovative school models; magnet programs, language emersion 
programs, Learn and Earn, Early and Middle Colleges. Another innovative 
approach might be creating Learning Lab schools with Universities to 
implement research-based innovations that impact student achievement.
    Additionally, new and innovative approaches for public schools must 
entail reviewing the manner in which we assess students, evaluate 
teachers and fund innovation.
    We must provide students ways to show what they have learned: As 
ESEA is reauthorized the focus can not be on more assessments/testing, 
but better assessments to allow students to show they can solve 
problems, think creatively, and work in teams. There must be multiple 
ways that schools can demonstrate success. Success is not just a 
passing test score!
    We must Elevate the Profession: North Carolina has an edge on 
supporting effective educators with the Principal and Teacher 
Evaluation Process. This new evaluation process has created in most 
schools; climates of collaboration, self reflection, and professional 
learning communities where instruction is data-driven to maximize 
student success. The evaluation of educators can not be solely based on 
a student test score. There are many ways that a teacher or principal 
impacts a student's growth. To elevate the most noble profession, we 
must have policies in place that help create more respect for educators 
and stop the divisive policies that create barriers for collaboration; 
such as merit or differentiated pay. To be an educator, one needs to 
have skills as well as knowledge and training. Saying anyone can come 
and teach if they have the desire to make a difference does not create 
professional respect. The Federal Government does not need to tell 
States how to evaluate educators nor does the Federal Government need 
to set policies on who schools should hire. Each State and each 
community has different needs and ONE-SIZE-DOES-NOT-FIT-ALL.
    We must Provide Equitable Access to Education: The competitive 
grant process will create more have and have not schools. It is noble 
to provide opportunities for schools to apply for extra funds, but many 
schools that need extra funds will have too many barriers to access the 
needed funding. Before extra funds are granted, the Federal Government 
must fully fund Title I and IDEA programs without the current caps.
    As we push forward for innovation we must remember that every child 
has equal rights to a quality public education and fully funding that 
education is a baseline for student success. I appreciate the 
opportunity to be a witness today and I look forward to continuing this 
dialogue in the hopes for a better and brighter future for all of our 
students.

    Senator Hagan. On behalf of all the people here testifying, 
I can't begin to tell you how much I appreciate what you have 
done for education so far, and what you will continue to do. 
Just the fact that you are here sharing your insight and wisdom 
is critical. So I do want to thank you.
    When I consider the theme fostering innovation in 
education, I think that going forward in our country--
obviously, the socioeconomic backgrounds and differences of our 
students is certainly something that we all must take into 
consideration. I also think that STEM education is going to be 
critical because we want these students to have careers and a 
college education.
    When I look at what is going on in North Carolina, as we 
move from a manufacturing, agrarian society, driven by the 
aerospace industry, medical, biotech, and pharmaceuticals, 
clean energy manufacturing, and all of those areas, we have got 
to come together to teach all of that in our school systems. 
And I do think that online education is going to grow 
dramatically.
    One of my own children just recently, before he went into 
medical school, took a couple of online science classes that he 
hadn't taken as an undergraduate. And I just see that just 
growing exponentially.
    I have got questions for each and every one of you. And 
typically what we do in the Senate, we take rounds of 
questions. And since I am the only one here today, what I am 
going to do is just ask each one of you a question, and then if 
we have time, we will go back and start again.
    One of the things I am focused on, being from North 
Carolina, is that with such a large rural population in our 
States, a lot of what is applied to urban areas cannot be 
handled the same way in our rural areas. So if you have any 
insight on rural education issues, I would love to hear that, 
too.
    Ms. Shah, once again, thank you so much for coming. North 
Carolina enrolls more students in rural school districts than 
any other State in the country. At these schools, the students 
obviously face unique challenges. The President's blueprint for 
the No Child Left Behind reauthorization states that the 
Secretary may reserve funds for research on innovative programs 
that are designed to help rural districts overcome capacity 
constraints.
    Can you share your thoughts on the way that these 
innovative programs might be designed, and are there any 
examples that you can cite? And one other thing that none of us 
talked about today, too, was any sort of discipline in the 
schools, if that has any impact on what it is that we are 
talking about now, too?
    Thanks.
    Ms. Shah. Thank you for that question.
    We certainly recognize the unique challenges facing rural 
areas, and we are deeply committed to better serving rural 
areas. As we all know, there are more small rural communities 
than there are large urban ones. And given our focus on 
bringing funding and resources to where kids are in need and 
simultaneously getting the skill is critical for us to better 
serve rural communities.
    Specifically, you asked about the Secretary's request to 
set aside funds for research and capacity building. So the 
first thing I would say is that we are requesting the authority 
to do so. So no funds for that would be taken from the Rural 
Education Achievement Program in Fiscal Year 2011, but we would 
hope in future years that we would have funds allocated for 
this purpose. And we would, hopefully, be able to use those for 
a range of activities, including national activities, which 
could very specifically be used to provide technical assistance 
to small rural districts to enable them to increase their 
capacity to access more of the competitive grant making that 
the department is now moving toward.
    But it could also be used to support research into teacher 
prep and recruitment programs for rural schools, including Grow 
Your Own Teacher programs, which I am sure everyone here at 
this stage is quite familiar with. But we know there is much 
research out there that tell us that teachers want to teach in 
schools where they grew up and prefer areas like their 
hometowns.
    And we know that in rural communities, there are many young 
individuals, mid-career professionals, all sorts of different 
people who want to go into teaching. And by leveraging 
partnerships with universities and some of the distance 
learning community that we have also talked about briefly, 
there are a whole range of ways that we could support 
activities like that that would hopefully benefit more rural 
communities.
    I would probably stop there, but I would say between the 
growing your own teachers and the distance learning, those are 
at least two very good examples of ways that we think we can 
leverage what is happening across the country to better benefit 
rural communities.
    Senator Hagan. I think growing your own teachers in rural 
areas is critical, and I think we have also seen that in the 
medical field, as well. One of the other bills that I am 
working on now is the Rural Physician Act. If we can get more 
people to go to our rural areas to practice medicine, and 
become teachers, I think it would be advantageous for those 
rural areas.
    Dr. Garland, you talked about North Carolina's commitment 
to high school reform and to increasing the number of students 
who attend post-secondary school. I know that you also know 
that President Obama and Secretary Duncan have set the goal 
that by 2020, the United States will once again lead the world 
in college completion.
    To accomplish that goal, tell me what you think the value 
is of national or common standards, from a curriculum 
standpoint.
    Ms. Garland. North Carolina has supported the notion of 
Common Core standards from the beginning. In fact, Governor 
Hunt, two Governors ago, was one of the first Governors that 
spoke to the need for Common Core standards.
    If you will remember, I spoke about North Carolina 
rewriting its standard course of study. Actually, we have begun 
new efforts in the area of more rigorous standards, more 
rigorous requirements for students to graduate from high 
school, and we are delighted that the Common Core movement 
gained some legs because, obviously, in our country, we don't 
need 50 different standards for Algebra I or Algebra II.
    So the State Board of Education does support vehemently the 
notion of Common Core standards, as well as common assessments. 
In our country, in order for every--for the country to be 
competitive with countries from across the world, we need to 
set high standards and then figure out ways to get all of our 
students to meet those standards.
    Senator Hagan. When you mention ``around the world,'' do 
you look at curriculums in other countries and the number of 
days that students go to school?
    Ms. Garland. Yes.
    Senator Hagan. And how do those common standards compare to 
other countries?
    Ms. Garland. Our Common Core standards have actually been 
benchmarked against international standards, and so we feel 
very confident that once the Common Core is initiated, that the 
standards themselves will be the same level of knowledge and 
skills that students across the world have to demonstrate when 
they graduate from high school.
    However, in our country, our students do not attend school 
as many days. It is typical in our country around 180 days for 
school attendance. We know that in some countries, students 
attend school 220 days. So we are falling behind in terms of 
days that our students are able to attend school to achieve 
those standards.
    Senator Hagan. Somebody once told me that by the time our 
students graduate from high school, in another country, a 
European student would have gone to school for a whole year?
    Ms. Garland. Right. I think in our country we have to 
overcome the notion of the, again, the agrarian calendar. We 
still struggle in some areas of our State to get support for 
year-round schooling of any kind because in our State, we have 
a notion that the summertime should be spent at the mountains 
and the beach, which, obviously, we want to support the tourism 
industry in our State.
    But we don't think that it should happen at the expense of 
education for our students. And so, I do think we have to break 
some of those paradigms if we are going to move our students 
forward. Just having world-class standards will not produce 
world-class students.
    Senator Hagan. Thank you.
    Ms. Clark, in your testimony, you said that you were 
surprised, or perhaps that they were surprised at the finding 
that teachers with advanced degrees did not have better 
outcomes for the children they are teaching. Can you talk about 
that just a little bit?
    Ms. Clark. If we think about it, the notion of a one-time 
degree attainment against ongoing professional development, it 
is really counterintuitive that we would be compensating 
teachers for a degree they might have received 20 years ago. 
There certainly wouldn't be anything taken away from that 
teacher's initial learning--but when you put it up against 
ongoing professional development.
    What I didn't talk about is, I think there is also the 
opportunity to look at experience and longevity. That is 
another thing the State of North Carolina and many States 
across the country re-enforce teachers and compensate them for 
years of experience when our data also showed us that that 
doesn't necessarily correlate with student achievement results.
    Senator Hagan. And North Carolina, I know, has professional 
development for principals and teachers. I know NCCAT is 
something that I think is highly effective. Obviously, not 
every teacher can attend.
    Ms. Clark. Yes, I think it is scope and scale of quality 
professional development rather than isolated opportunities 
that we have to continue to look at the local and district 
level, as well as the State.
    Senator Hagan. Thank you.
    Dr. Arbuckle, you state that the impact of the Mission 
Possible has been great in terms of maintaining faculty within 
high-needs school districts to maintain those teachers. But 
yet, it remains to be seen how long it will take to increase 
student achievement. I want you to elaborate on that. And how 
long will the funding stream exist?
    Mrs. Arbuckle. Yes. The funding that has come initially are 
redirected local dollars and then some grants from some local 
foundations and also a Federal grant from the U.S. Department 
of Education. I believe it is Federal, State, or a State grant 
that is being reapplied for. So that funding piece has been 
taken care of outside of the operating budget of Guilford 
County Schools.
    I think one of the tragedies in our public school district 
and the public school system is that we have so many of our 
children who come to school so ill prepared to enter school. 
There is substantial research on just the vocabulary words of 
children who have grown up in middle-class families versus 
those who have grown up in poverty, and that is just one 
indicator of the incidences that children come to school 
behind.
    And so, consequently, are not proficient at grade level by 
grade 3, which is what I described as a line in the sand. I 
mean, we are projecting jail beds on the reading scores of 
children in grade 3, projecting jail bed need. So I think one 
of the investments that we must make is in early childhood 
education and enhancing parents' capacity to be able to provide 
for their children in terms of language development and so 
forth.
    That has been, when I have questioned the district about 
our success, or lack thereof, in terms of Mission Possible, one 
of the things that is a source of great pride is the stability 
of the teaching force because in these low-performing schools, 
you had 50 to 75 percent teaching turnover every year. And as a 
consequence, that impacted the continuity of the learning 
environment for the children. So that is an accomplishment, and 
people are very proud of that.
    The other issue is making certain that if you have a school 
with low-performing or inadequate teachers, the course of time 
that it takes to shift that teacher population. We have a 
school in our district this year that is actually one of the 
lowest performing schools in the country, and we are initiating 
a transformational model that is now allowed by the State to 
require every person within that school to reapply for their 
job and to set different criteria for the hiring of the new 
teachers.
    We are very excited about that. This is a school where we 
have had 27 percent of children on grade level. So, a huge 
challenge. And we are hopeful that being able to do this, we 
want to build opportunity. It will make a huge difference.
    Senator Hagan. Thank you.
    Dr. Setser, when we talk about virtual learning, I do think 
that there will be a dramatic change in what education has 
looked like for so many years. But as we look at that, 
particularly in our rural areas, too, can you tell me how we 
can enhance the 21st century skills necessary for students to 
be successful in the workplace, through virtual education?
    Mr. Setser. Sure. A couple of comments. One is that if I 
polled our students over here to my right, how many of you have 
access to a cell phone right now? Show of hands.
    [Show of hands.]
    So those cell phones have Web browsers. They have text 
messaging. They have a way for the students to pull up content 
and interact with it.
    So our discussion is not whether we have a computer in 
every home or a one-to-one laptop initiative. Those things are 
all critical, but we need to follow the national technology 
plan, which states that all students by 2015 will have access 
to a device or access to a way to bring content to them.
    But in the meantime, for students who don't, in the rural 
areas, for instance, they are setting up tremendously 
innovative programs like going to local churches and setting up 
virtual kiosks where those students can learn anytime, 
anywhere, and the church leaders can be trained on how to 
execute in that virtual environment. The other thing we are 
seeing is in States like Georgia, virtual kiosks at McDonald's 
or Wal-Mart or libraries, where students can have anytime, 
anywhere access to bring in content to them.
    So if we want to keep rural citizens in their demographic, 
geographic areas, where they can spend the tax dollars in those 
areas and bolster the local economy, you also can bring in 
training over the Net, such as the effort with WakeMed, where 
medical records transcriptionists are being trained over the 
Net and then doing that job in their local county. They are 
spending their tax dollars there and living there because they 
value that quality of life.
    So what this medium does is allow for multiple 
opportunities, multiple options within a district, within a 
community. But school districts and schools continue to assess 
the deployment of this in terms of safety issues or security 
concerns when multiple paths have already shown that innovation 
can exist in those types of environments.
    So the school is a really critical partner as we move 
forward, where community members, community leaders can come in 
and use those computers that we see in places like Watauga 
County, where early in the morning, families are coming in from 
6 o'clock to 8 o'clock during peak times, third shift, and 
accessing devices and content.
    Those are just some sample ways that the rural communities 
can keep peak their localized talent where it resides, but also 
access the world at large on devices like cell phones that we 
are seeing today.
    Senator Hagan. I appreciate it. I also think we have got to 
be sure that these rural areas in North Carolina have access to 
broadband technology, and I know that MCNC just got a sizable 
grant to help with putting broadband in 29 rural counties that 
currently have dial-up. It is one thing to have access, it is 
another thing to have to sit there forever for something to 
download. So I think that is critical not only in education, 
but in business.
    I know one of the farmers I talked to, who grows sweet 
potatoes and potatoes, says he needs to have an accurate count 
on a daily basis of what the supply shipment stream is. And yet 
if it takes 2 hours to download what he needs to access, just 
think what that does to his day. So I think that is critical.
    Mr. Rectanus, STEM is probably one of the most important 
things that I think our country needs to be focused on right 
now from the standpoint of education. But I am also concerned. 
I know a couple of years ago, our university system graduated I 
believe it was two individuals with teaching degrees specific 
to physics. I think after 1 year, one of those two teachers 
wasn't even around anymore.
    I think that STEM education is critical. But I also think 
it needs to be very much hands-on, too. I have two kids that 
are scientists. That is why I am very concerned that we need to 
do all that we can going forward to be sure that you all have 
great access, which I know you do here, to a lot of wonderful 
technology having to do with science, engineering, math, and 
information technology.
    So share your thoughts on how we can truly integrate STEM 
education into every school and every grade level so that not 
only are our children much more interested in fields like 
engineering and math--and that means you girls, too. We 
definitely need you. But have the tools that they need to be 
successful.
    Mr. Rectanus. Is that all, Senator?
    Senator Hagan. That is all. You have 1 minute.
    [Laughter.]
    Mr. Rectanus. All students--I mean, this is really about 
equity. It is about all students, and it is about connecting 
our education pipeline to our economic pipeline. We know that 
that is the case.
    I think in our minds, and NC STEM's approach, we actually 
feel that the rural communities are an asset to this. We have 
focused--while our network is statewide, we focused our STEM 
community's effort in rural communities around the State, and 
we have done that very purposefully. We have done it for a few 
reasons.
    No. 1, the economic changes going on in a place like 
Kinston that historically has done tobacco and manufacturing is 
now in advanced manufacturing in aerospace. This is happening 
now. This is a challenge that must be addressed immediately and 
for all students and for all workers. Your example outlines the 
need for a farmer to use STEM skills, which are critical.
    We also do it within these communities because they have a 
great opportunity. These communities have worked together, but 
they have innovated. They have been innovative in the past. 
Oftentimes, they have done that in black box. They haven't been 
able to share that with communities around the State, and we 
see that as a great opportunity.
    And it is really necessary for us to provide those examples 
and to share what is going on in each of these different areas, 
but also across the State so that not everyone is forced to 
boil the ocean.
    Senator Hagan. How do we recruit the teachers to go into 
these fields and teach?
    Mr. Rectanus. It is a great question. In fact, Davie County 
is one example that has partnered with Appalachian State 
University for a number of years and is now working with Wake 
Forest Baptist Medical and UNC-Greensboro to identify and 
partner leading edge pre-service and early career teachers with 
master teachers or more experienced teachers to help give that 
broad perspective. And they are now bringing in business 
professionals that really add a new dimension into bringing 
those folks into this.
    I think the opportunity to address the STEM skills beyond--
within the university system to address STEM skills outside of 
the schools of education is critical.
    Senator Hagan. Thank you.
    Mr. Rectanus. And I think there is opportunity to do that.
    Senator Hagan. Thank you.
    One other example for the students, I was actually taking a 
tour this last week at a company in North Carolina, and we are 
making these airplanes now out of composite materials because 
they are much lighter. So they can use a whole lot less fuel 
for traveling distances. But one of the draw-downs of that 
composite material is when lightning hits it, it might get 
fried. So you have to have a shield over it that would detract 
the lightning so it is not going to hit it or so it wouldn't 
affect it. It would go around it.
    A company in North Carolina has developed a sort of 
composite that just makes a little shield over it. It is just 
fascinating what new technologies can do. So there is a lot of 
great things that we still need your wonderful minds to help 
figure out.
    Ms. McCray, as a 32-year teacher, you certainly have a lot 
of experience in so many areas in our education system, and I 
know that there is an abundance of research and several 
examples of programs even in the Charlotte-Mecklenburg system 
school district that aim to evaluate a teacher's effectiveness 
in the classroom.
    As a classroom teacher, can you share what you think is the 
most effective design for evaluating a teacher's performance?
    Ms. McCray. The No. 1 thing, I think, would be my being 
able to reach each student that is in my class. So I would have 
to say that teacher-to-pupil ratio is going to be one of your 
most effective designs there.
    Senator Hagan. How would you relate that to online 
teaching?
    Ms. McCray. For online teaching, well, on the elementary 
level, we don't do too much of that. But with my own daughter, 
who is now a freshman in college, I had the experience of 
watching her take an online test, exam at Elizabeth City. So I 
was amazed by how they do all of that.
    For our students online what we can do, what we are doing 
presently is part of our literacy program where the students 
can work one-on-one in a remediation-type program, where they 
don't need the teacher there. The teacher more or less does 
follow up with them afterwards. So that is a lot of the online 
we are doing.
    Now as far as the science, we do have a lot of hands-on 
with the science. And we just need the time to do it during the 
school day where our students are exposed to something other 
than just their basic literacy program and their math program 
because they do have a joy of learning science and social 
studies. So we have to bring those other core subjects in, not 
just during test time when they see that they are testing on 
something that is not basically just a story. But we have to 
expose them to that type of instruction during the day.
    I have seen us sort of shift away from instruction with our 
science and our social studies because now we are more 
assessment-driven.
    One thing I do want to say. Poverty is the same in an urban 
area as it is in a rural area. That is why it is important that 
you all really totally fund our Title I and our IDEA programs 
because that helps a lot of urban areas with their pockets of 
poverty.
    Senator Hagan. Thank you.
    You know, I know we are getting close to the end. Is there 
something we have left out that you just have this burning 
desire we need to share?
    Dr. Garland.
    Ms. Garland. We have talked so much about the need for 
effective teachers in all of our classrooms in low-performing 
schools, rural and urban. The State board is taking a different 
view of how we fill the positions in those classrooms.
    There is new research that has just been released by UNC 
general administration that shows that Teach for America 
teachers actually do a very good job of working in the rural 
areas of our State. In fact, they outperform in many cases our 
own UNC graduate teachers from out of State.
    I think what we have to do in our educational field is 
break some of those traditional ways that we have gone about 
looking at the teaching profession. We have felt like we had to 
recruit people that would commit 30 years in order for them to 
be accepted quickly into the profession.
    Certainly, we don't want anybody to teach in the public 
schools if they are not capable of teaching in the public 
schools and if they are not competent. However, in some of our 
rural areas if we can create a culture of continuous change so 
that we have a crop, if you will, of Teach for America teachers 
that come in and out. The military does it all the time.
    They are constantly working in a field where they have new 
recruits coming and going, and yet they are able to bring them 
in, induct them, and make them very competent and ready to work 
in a very short period of time. Where in the schools, we have 
thought that folks had to come and stay forever.
    And so, looking at how we fill those high-needs areas like 
STEM, if we can get those teachers for 3 or 4 years, bring them 
in, quickly acculturate them to their surroundings, and then 
create a culture where that is the norm, then I bet we can meet 
some of those high-needs areas with very competent teachers.
    Senator Hagan. I saw an advertisement in a school 
newsletter that said some of the northeast boarding schools 
were recruiting students to teach for 2 years in science and 
math. Just commit those 2 years, give this back, and I thought 
that was an interesting approach to a recruitment process.
    Ms. Garland. You have to have a good induction program 
because they have to know something about pedagogy when they 
come. But if we put the right structures, then I think it will 
work.
    Senator Hagan. Ms. Clark, let me ask you one question 
regarding pay for performance. Can you talk about how that is 
accepted at the teacher level? I know there is so much talk on 
that around the country right now.
    Ms. Clark. I think we are in the early stages in Charlotte 
of designing our pay for performance, and we will be doing that 
with our teachers. We have had a wonderful opportunity with our 
Teacher Incentive Fund grant to pilot some different approaches 
to pay for performance.
    So we have both opportunities for teachers to design their 
own goals, as well as a measure that has individual student 
growth as a part of that measure. And we are in our final year 
with that grant next year, and we will have another iteration 
of that as well. So we are designing this over a 4-year period 
of time and being very intentional about involving our 
teachers.
    Ms. McCray sits on our steering committee at the district 
level, representing MCAE, and we also have another teacher on 
the committee. We will be expanding it into stakeholder groups 
as we move forward.
    Senator Hagan. Great. Let me ask my staff here how we are 
doing on time. We need to wrap up?
    Well, I just want to thank you, and I see Chairman Roberts 
leaving. Thank you so much for being here. I always look to you 
for great guidance and advice. She does a great job in 
Mecklenburg County and always gives me great information.
    The reason we are here is because we want to have the best-
educated students in the future, and all of you are so 
committed and so dedicated. I just want to thank you for all of 
your information.
    I am thrilled to be in the U.S. Senate. I am thrilled to be 
a part of the Health, Education, Labor, and Pensions Committee, 
and I want to work together with my colleagues to make 
significant changes to the No Child Left Behind law by hearing 
in detail today about the innovative work that all of you are 
doing across North Carolina, as well as the Department of 
Education's commitment for supporting these innovative 
programs.
    I also want to thank so much the principal, Ms. Bowen. 
Thank you so much for letting us come here to your school. And 
I believe you said the assistant principal Mr. Yakin helped to 
really coordinate this. So I want to thank you, too.
    I really want to thank the students for being here, and at 
the end, I want to come over and chat with you and hear what 
your questions and concerns are. Once again, we are all here 
because of you.
    Thank you so much. The Fostering Innovation in Education 
hearing for the Senate Committee on Health, Education, Labor, 
and Pensions is now adjourned.
    [Whereupon, at 12:21 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
